<html>
<title> - THE EMPLOYER MANDATE: EXAMINING THE DELAY AND ITS EFFECT ON WORKPLACES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
			THE EMPLOYER MANDATE: EXAMINING THE 
			DELAY AND ITS EFFECT ON WORKPLACES

=======================================================================

                             JOINT HEARING

                               BEFORE THE
                               
                  SUBCOMMITTEE ON HEALTH, EMPLOYMENT,
                          LABOR, AND PENSIONS


                               AND THE

                   SUBCOMMITTEE WORKFORCE PROTECTIONS

                                 OF THE

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, JULY 23, 2013

                               __________

                           Serial No. 113-28

                               __________

  Printed for the use of the Committee on Education and the Workforce
  
  
  
  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
  
  


      Available via the World Wide Web: www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov
            
            
            
                        U.S. GOVERNMENT PUBLISHING OFFICE
82-142 PDF                   WASHINGTON : 2015                      
              
               
________________________________________________________________________________________                
  For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="88eff8e7c8ebfdfbfce0ede4f8a6ebe7e5a6">[email&#160;protected]</a>  
              
                
                
                
                
                
                
                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Thomas E. Petri, Wisconsin           George Miller, California,
Howard P. ``Buck'' McKeon,             Senior Democratic Member
    California                       Robert E. Andrews, New Jersey
Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Tom Price, Georgia                   Rubeen Hinojosa, Texas
Kenny Marchant, Texas                Carolyn McCarthy, New York
Duncan Hunter, California            John F. Tierney, Massachusetts
David P. Roe, Tennessee              Rush Holt, New Jersey
Glenn Thompson, Pennsylvania         Susan A. Davis, California
Tim Walberg, Michigan                Rauul M. Grijalva, Arizona
Matt Salmon, Arizona                 Timothy H. Bishop, New York
Brett Guthrie, Kentucky              David Loebsack, Iowa
Scott DesJarlais, Tennessee          Joe Courtney, Connecticut
Todd Rokita, Indiana                 Marcia L. Fudge, Ohio
Larry Bucshon, Indiana               Jared Polis, Colorado
Trey Gowdy, South Carolina           Gregorio Kilili Camacho Sablan,
Lou Barletta, Pennsylvania             Northern Mariana Islands
Martha Roby, Alabama                 John A. Yarmuth, Kentucky
Joseph J. Heck, Nevada               Frederica S. Wilson, Florida
Susan W. Brooks, Indiana             Suzanne Bonamici, Oregon
Richard Hudson, North Carolina
Luke Messer, Indiana

                    Juliane Sullivan, Staff Director
                 Jody Calemine, Minority Staff Director
                                 ------                                

        SUBCOMMITTEE ON HEALTH, EMPLOYMENT, LABOR, AND PENSIONS

                   DAVID P. ROE, Tennessee, Chairman

Joe Wilson, South Carolina           Robert E. Andrews, New Jersey,
Tom Price, Georgia                     Ranking Member
Kenny Marchant, Texas                Rush Holt, New Jersey
Matt Salmon, Arizona                 David Loebsack, Iowa
Brett Guthrie, Kentucky              Robert C. ``Bobby'' Scott, 
Scott DesJarlais, Tennessee              Virginia
Larry Bucshon, Indiana               Rubeen Hinojosa, Texas
Trey Gowdy, South Carolina           John F. Tierney, Massachusetts
Lou Barletta, Pennsylvania           Rauul M. Grijalva, Arizona
Martha Roby, Alabama                 Joe Courtney, Connecticut
Joseph J. Heck, Nevada               Jared Polis, Colorado
Susan W. Brooks, Indiana             John A. Yarmuth, Kentucky
Luke Messer, Indiana                 Frederica S. Wilson, Florida
                 SUBCOMMITTEE ON WORKFORCE PROTECTIONS

                    TIM WALBERG, Michigan, Chairman

John Kline, Minnesota                Joe Courtney, Connecticut,
Tom Price, Georgia                     Ranking Member
Duncan Hunter, California            Robert E. Andrews, New Jersey
Scott DesJarlais, Tennessee          Timothy H. Bishop, New York
Todd Rokita, Indiana                 Marcia L. Fudge, Ohio
Larry Bucshon, Indiana               Gregorio Kilili Camacho Sablan,
Richard Hudson, North Carolina         Northern Mariana Islands
                                     Suzanne Bonamici, Oregon
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on July 23, 2013....................................     1

Statement of Members:
    Andrews, Hon. Robert R., Ranking Member, Subcommittee on 
      Health, Employment, Labor, and Pensions....................    16
    Courtney, Hon. Joe, Ranking Member, Subcommittee on Workforce 
      Protections................................................    17
    Roe, Hon. Phil, Chairman, Subcommittee on Health, Employment, 
      Labor, and Pensions........................................     2
        Prepared statement of....................................     3
    Walberg, Hon. Tim, Chairman, Subcommittee on Workforce 
      Protections................................................     4
        Prepared statement of....................................    15

Statement of Witnesses:
    Holtz-Eakin,Douglas President, American Action Forum.........    65
        Prepared statement of....................................    67
    Pollack, Ron Executive Director, Families USA,...............    58
        Prepared statement of....................................    60
    Richardson, Jamie T., Vice President, White Castle System, 
      Inc........................................................    43
        Prepared statement of....................................    45
    Turner, Grace-Marie, President, Galen Institute..............    31
        Prepared statement of....................................    34

Additional Submissions:
    Mr. Courtney:
        Bureau of Labor Statistics, U.S. Department of Labor, 
          News Release...........................................   101
        Letter dated July 16, 2013, from the Congressional 
          Research Service.......................................    19
        Letter dated July 22, 2013, from DeVivo, John, 
          Willimantic Waste Paper Co., Inc.,.....................    29
        Sturdevant, Matthew, The Harford Courant.................    26
        The New York Times, Health Plan Cost for New Yorkers Set 
          to Fall 50%............................................    24
    Fudge, Hon. Marcia L., statement for the record                 143
    Fudge, Hon. Marcia L., a Representative in Congress from the 
      State of Ohio, questions submitted for the record to:
        Mr. Pollack..............................................   146
        Mr. Richardson...........................................   148
    Response to questions submitted:
        Mr. Pollack..............................................   150
        Mr. Richardson...........................................   153
    Chairman Walberg:
        Letter dated April 24, 2013, from the United Union of 
          Roofers, Waterproofers and Allied Workers..............     9
        Seven House-Passed Bills President Obama Signed that 
          Repeal or Defund Parts of His Health Care Law..........    74
        Letter dated July 11, 2013, from International 
          Brotherhood of Teamsters...............................    11
        The Wall Street Journal, Mort Zuckerman: A Jobless 
          Recovery Is a Phony Recovery...........................     5
        Letter dated July 18, 2013,from the National Electrical 
          Contractors Association................................    14

              THE EMPLOYER MANDATE: EXAMINING THE DELAY



                      AND ITS EFFECT ON WORKPLACES

                              ----------                              


                         Tuesday, July 23, 2013

                       House of Representatives,

               Subcommittee on Health, Employment, Labor,

                             and Pensions,

                               joint with

                 Subcommittee on Workforce Protections

               Committee on Education and the Workforce,

                            Washington, D.C.

                              ----------                              

    The subcommittees met, pursuant to call, at 10:02 a.m., in 
Room 2175, Rayburn House Office Building, Hon. David P. Roe 
[chairman of the Health, Employment, Labor, and Pensions 
subcommittee] presiding.
    Present from Health, Employment, Labor, and Pensions 
subcommittee: Representatives Roe, Wilson, Price, Salmon, 
Guthrie, DesJarlais, Roby, Heck, Brooks, Messer, Andrews, 
Courtney, and Polis.
    Present from Workforce Protections subcommittee: 
Representatives Walberg, Kline, Price, DesJarlais, Rokita, 
Hudson, Courtney, Andrews, Bonamici.
    Also present: Miller
    Staff present: Andrew Banducci, Professional Staff Member; 
Katherine Bathgate, Deputy Press Secretary; Owen Caine, 
Legislative Assistant; Molly Conway, Professional Staff Member; 
Ed Gilroy, Director of Workforce Policy; Benjamin Hoog, Senior 
Legislative Assistant; Nancy Locke, Chief Clerk; Brian Newell, 
Deputy Communications Director; Krisann Pearce, General 
Counsel; Molly McLaughlin Salmi, Deputy Director of Workforce 
Policy; Todd Spangler, Senior Health Policy Advisor; Alissa 
Strawcutter, Deputy Clerk; Joseph Wheeler, Professional Staff 
Member; Aaron Albright, Minority Communications Director for 
Labor; Tylease Alli, Minority Clerk/Intern and Fellow 
Coordinator; Daniel Foster, Minority Fellow, Labor; Eunice 
Ikene, Minority Staff Assistant; Brian Levin, Minority Deputy 
Press Secretary/New Media Coordinator; Leticia Mederos, 
Minority Senior Policy Advisor; Michele Varnhagen, Minority 
Chief Policy Advisor/Labor Policy Director; Michael Zola, 
Minority Deputy Staff Director; and Mark Zuckerman, Minority 
Senior Economic Advisor.
    Chairman Roe. A quorum being present, the joint hearing of 
the Subcommittee on Health, Employment, Labor, and Pensions and 
the Subcommittee on Workforce Protection will come to order.
    I would like to thank my colleague from Michigan, Tim 
Walberg, the chairman of the Subcommittee on Workforce 
Protections for agreeing to hold this joint hearing on the 
``Employer Mandate: Examining the Delay and Its Effect on the 
Workplace.''
    Today we will have opening statements from the chairman and 
ranking members of each subcommittee. With that, I will 
recognize myself for my opening statement.
    Good morning. First, let me welcome our colleagues from the 
Subcommittee on Workforce Protections. I would also like to 
thank our guests for being with us this morning. We have 
assembled an excellent panel of witnesses and look forward to 
your testimony.
    Three weeks ago the American people were joining friends 
and family to celebrate the Fourth of July holiday and hotdogs 
and fireworks. Little did they know the Obama administration 
was about to set off some fireworks of its own.
    Through a blog post on the Treasury Department's Web site, 
the administration announced it would delay for 1 year 
enforcement of a vital piece of the recent health care law; the 
employer mandate.
    The delay provides workplaces a temporary reprieve from an 
onerous mandate; however, it does not alter the fact the law is 
fatally flawed. Regardless of when the employer mandate is 
implemented, it will destroy jobs and force Americans to accept 
part-time work when what they desperately need are full-time 
jobs.
    That is why the House will continue to demand permanent 
relief for all Americans. In the meantime, we will conduct 
oversight of the President's decision and determine what it 
means for our nation's workplace. To that end, there are a 
number of questions that need to be answered.
    For example, does the President have the authority to 
unilaterally delay enforcement of the law? It is well-
recognized a President can decide not to enforce a law he 
believes is unconstitutional. Yet there is nothing in the 
President's decision to suggest he believes the employer 
mandate is unconstitutional.
    Quite the opposite, President Obama signed the bill into 
law and his Justice Department defended the law before the 
Supreme Court. Can a President disregard the law because it is 
politically inconvenient or the federal bureaucracy is running 
behind schedule?
    We also have to ask who was involved in this decision and 
when it was ultimately made. In June, Health and Human Services 
Secretary, Kathleen Sebelius, testified before the full 
committee that implementation of the law was proceeding along 
just fine.
    The senior Democratic member of the committee responded to 
the secretary's testimony by saying, ``This is all good news 
and stands in stark contrast to the claims we have been hearing 
from the other side for 3 years. Now is not the time to reverse 
course.''
    Yet weeks later the administration did just that by 
reversing course on a critical piece of the President's 
signature health care law. Was this a last minute decision with 
no coordination with other federal agencies?
    Or was this a carefully orchestrated effort developed long 
before the decision was announced? Is the administration 
planning to reverse course on other aspects of the law?
    We hoped that an administration official would provide 
answers to some of these questions. That is why Chairman 
Walberg and I invited Howard Shelanski, administrator for the 
Office of Management and Budget's Office of Information and 
Regulatory Affairs, to testify.
    However, the OMB refused to make Mr. Shelanski available, 
stating his office was not involved in the employer mandate 
delay. It is troubling to learn an office in charge of 
overseeing federal regulatory policy wasn't involved in this 
monumental decision. It simply raises new questions. Congress 
and the American people deserve answers.
    I look forward to our discussion, and I will recognize my 
distinguished colleague, Tim Walberg, the chairman of Workforce 
Protection Subcommittee for his opening remarks.
    Mr. Walberg?
    [The statement of Chairman Roe follows:]

Prepared Statement of Hon. Phil Roe, Chairman, Subcommittee on Health, 
                    Employment, Labor, and Pensions

    Good morning. First let me welcome our colleagues from the 
Subcommittee on Workforce Protections. I would also like to thank our 
guests for being with us this morning. We have assembled an excellent 
panel of witnesses and we look forward to their testimony.
    Three weeks ago the American people were joining friends and family 
to celebrate the July Fourth holiday with hotdogs and fireworks. Little 
did they know the Obama administration was about to set off some 
fireworks of its own. Through a blog post on the Treasury Department's 
website, the administration announced it would delay for one year 
enforcement of a vital piece of the recent health care law - the 
employer mandate.
    The delay provides workplaces a temporary reprieve from an onerous 
mandate; however, it does not alter the fact the law is fatally flawed. 
Regardless of when the employer mandate is implemented, it will destroy 
jobs and force Americans to accept part-time work when what they 
desperately need are full-time jobs. That is why the House will 
continue to demand permanent relief for all Americans. In the meantime, 
we will conduct oversight of the president's decision and determine 
what it means for our nation's workplace. Toward that end, there are a 
number of questions that need to be answered.
    For example, does the president have the authority to unilaterally 
delay enforcement of the law? It is well recognized a president can 
decide not to enforce a law he believes is unconstitutional. Yet there 
is nothing in the president's decision to suggest he believes the 
employer mandate is unconstitutional. Quite the opposite, President 
Obama signed the bill into law and his Justice Department defended the 
law before the Supreme Court. Can a president disregard the law because 
it's politically inconvenient or the federal bureaucracy is running 
behind schedule?
    We also have to ask who was involved in this decision and when it 
was ultimately made. In June Health and Human Services Secretary 
Kathleen Sebelius testified before the full committee that 
implementation of the law was proceeding along just fine. The senior 
Democratic member of the committee responded to the secretary's 
testimony by saying, ``This is all good news and stands in stark 
contrast to the claims we've been hearing from the other side for three 
years... Now is not the time to reverse course.''
    Yet weeks later the administration did just that by reversing 
course on a critical piece of the president's signature health care 
law. Was this a last minute decision with no coordination with other 
federal agencies? Or was this a carefully orchestrated effort developed 
long before the decision was announced? Is the administration planning 
to ``reverse course'' on other aspects of the law?
    We hoped an administration official would provide answers to some 
of these questions. That is why Chairman Walberg and I invited Howard 
Shelanski, administrator for the Office of Management and Budget's 
Office of Information and Regulatory Affairs, to testify. However, OMB 
refused to make Mr. Shelanski available, stating his office was not 
involved in the employer mandate delay. It is troubling to learn an 
office in charge of overseeing federal regulatory policy wasn't 
involved in this monumental decision, and it simply raises new 
questions. Congress and the American people deserve answers.
    With that, I will now recognize my distinguished colleague 
Representative Andrews, the senior Democratic member of the 
subcommittee, for his opening remarks.
                                 ______
                                 
    Mr. Walberg. Thank you, Mr. Chairman.
    Good morning.
    I appreciate the chairman for presiding over this joint 
hearing and express my appreciation to our witnesses for 
sharing their expertise and their time with us today.
    We are well-acquainted with the challenges surrounding the 
employer mandate, which forces businesses to provide 
government-approved health insurance or pay higher taxes.
    It seems with each passing day there are new reports of 
employers facing tough choices thanks to this particular 
provision in the health care law. The mandate applies to 
businesses with 50 or more full-time workers and defines such 
workers as employees who work 30 or more hours.
    Our two subcommittees have broad jurisdiction over policies 
governing employee and employer relations. I can't think of 
another federal law that considers full-time work as 30 hours.
    In fact, the Fair Labor Standards Act established the 40-
hour work week for the purposes of federal overtime 
requirements, and it has been a hallmark of America's workplace 
for 75 years. Yet the health care law took a different 
approach, creating a perverse incentive for businesses to cut 
hours to avoid higher taxes.
    Today roughly 12 million Americans are unemployed; many in 
my district. More than 8 million individuals are working part-
time hours but need a full-time job. According to Mort 
Zuckerman, editor in chief of the U.S. News and World Report, 
the President's health care law shares some of the blame.
    In a recent op-ed in the Wall Street Journal, Zuckerman 
describes the growing reliance on part-time workers and writes 
this and I quote--``Little wonder that earlier this month the 
Obama administration announced it is postponing the employer 
mandate until 2015, undoubtedly to see if the delay will 
encourage more full-time hiring.''
    Mr. Zuckerman goes on to explain again, and I quote--``But 
thousands of small businesses have been capping employment at 
30 hours and not hiring more than 50 full-timers, and the 
businesses are unlikely to suddenly change that approach just 
because they received a 12-month reprieve.''
    I ask unanimous consent to submit for the record the op-ed 
of Mort Zuckerman.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T2142.001
    
    [GRAPHIC] [TIFF OMITTED] T2142.002
    
    [GRAPHIC] [TIFF OMITTED] T2142.003
    
    Chairman Roe. Without objection, so ordered.
    Mr. Walberg. Thank you, Chairman Roe.
    The decision to delay enforcement of the employer mandate 
is the confirmation that the law is in fact, and I quote a 
senator, ``A train wreck''. Republicans have long-cited the 
failings in the law and our concerns have been dismissed as 
political rhetoric.
    Yet the more we learn about the law, the more problems we 
encounter and the bigger the opposition grows. Even union 
leaders, once strong supporters of the law, are beginning to 
realize it is hurting workers.
    In a statement released in April, the union, United Union 
of Roofers, Waterproofers, and Allied Workers called for 
``repeal or complete reform,'' of President Obama's health care 
law.
    According to union President Kinsey Robinson, and I quote--
``In the rush to achieve its passage, many of the act's 
provisions were not fully conceived, resulting in unintended 
consequences that are inconsistent with the promise that those 
who were satisfied with their employer-sponsored coverage could 
keep it.''
    Mr. Chairman, I ask unanimous consent this statement be 
included in the hearing record.
    [The information follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Roe. Without objection.
    Mr. Walberg. I thank the chairman.
    Just recently officials with the International Brotherhood 
of Teamsters, United Food and Commercial Workers, and the 
UNITE-HERE warned democrat leaders that without changes the law 
and I quote--``Will shatter not only our hard-earned health 
benefits, but destroy the foundation of the 40-hour work week 
that is the backbone of the American middle class.''
    The union representatives continued, and I quote--``We can 
no longer stand silent in the face of elements of the 
Affordable Care Act that will destroy the very health and well-
being of our members along with millions of other hardworking 
Americans.''
    I ask unanimous consent this letter be inserted in the 
record.
    [The information follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Roe. Without objection, so ordered.
    Mr. Walberg. Thank you.
    Finally, earlier this month the International Brotherhood 
of Electrical Workers and the National Electrical Contractors 
Association wrote to Chairman Kline, and they said this: ``We 
cannot afford to sit on the sidelines as this law imposes 
increased benefit costs, fees, and new taxes on our plans. In 
addition, the health care law exempts all employers with less 
than 50 employees from offering health care coverage. This 
creates a vast competitive disadvantage for the 4,500 National 
Electrical Contractors Association contractors nationwide that 
responsibly provide coverage for their employees.''
    I again ask unanimous consent that this letter be inserted 
into the record.
    [The information follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Roe. Without objection.
    Mr. Walberg. Thank you.
    I believe we can do better than misguided policies that 
destroy full-time jobs. As public opposition grows, I am 
hopeful we can repeal the law and begin developing solutions 
that will lower health care costs and provide new opportunities 
for America's workers.
    Thank you again, Mr. Chairman, for holding this hearing, 
and I yield back.
    [The statement of Mr. Walberg follows:]

   Prepared Statement of Hon. Tim Walberg, Chairman, Subcommittee on 
                         Workforce Protections

    Good morning. I want to thank Chairman Roe for presiding over this 
joint hearing and express my appreciation to our witnesses for sharing 
their expertise with us today.
    We are well acquainted with the challenges surrounding the employer 
mandate, which forces businesses to provide government-approved health 
insurance or pay higher taxes. It seems with each passing day there are 
new reports of employers facing tough choices thanks to this particular 
provision in the health care law. The mandate applies to businesses 
with 50 or more full-time workers and defines such workers as employees 
who work 30 or more hours per work.
    Our two subcommittees have broad jurisdiction over policies 
governing employee and employer relations. I can't think of another 
federal law that considers full-time work as 30 hours. In fact, the 
Fair Labor Standards Act established the 40-hour work week for the 
purposes of federal overtime requirements, and it has been a hallmark 
of America's workplaces for 75 years. Yet the health care law took a 
different approach, creating a perverse incentive for businesses to cut 
hours to avoid higher taxes.
    Today roughly 12 million Americans are unemployed; more than 8 
million individuals are working part-time hours but need a full-time 
job. According to Mort Zuckerman, editor in chief of U.S. News and 
World Report, the president's health care law shares some of the blame. 
In a recent op-ed in the Wall Street Journal, Zuckerman describes the 
growing reliance on part-time workers and writes, ``Little wonder that 
earlier this month the Obama administration announced it is postponing 
the employer mandate until 2015, undoubtedly to see if the delay will 
encourage more full-time hiring.''
    Mr. Zuckerman goes on to explain, ``But thousands of small 
businesses have been capping employment at 30 hours and not hiring more 
than 50 full-timers, and the businesses are unlikely to suddenly change 
that approach just because they received a 12-month reprieve.''
    I ask unanimous consent to submit for the record the op-ed by Mort 
Zuckerman.
    [Chairman Roe: ``Without objection.'']
    Thank you, Chairman Roe.
    The decision to delay enforcement of the employer mandate is the 
confirmation that the law is in fact a ``train wreck.'' Republicans 
have long cited the failings in the law and our concerns have been 
dismissed as political rhetoric. Yet the more we learn about the law, 
the more problems we encounter and the bigger the opposition grows. 
Even union leaders - once strong supporters of the law - are beginning 
to realize it's hurting workers.
    In a statement released in April, the United Union of Roofers, 
Waterproofers and Allied Workers called for ``repeal or complete 
reform'' of President Obama's health care law. According to union 
President Kinsey Robinson, ``In the rush to achieve its passage, many 
of the act's provisions were not fully conceived, resulting in 
unintended consequences that are inconsistent with the promise that 
those who were satisfied with their employer sponsored coverage could 
keep it.''
    Mr. Chairman, I ask unanimous consent this statement be included in 
the hearing record.
    [Chairman Roe: ``Without objection.'']
    Thank you, Mr. Chairman.
    Just recently officials with the International Brotherhood of 
Teamsters, United Food and Commercial Workers, and UNITE-HERE warned 
Democratic leaders that without changes the law ``will shatter not only 
our hard-earned health benefits, but destroy the foundation of the 40 
hour work week that is the backbone of the American middle class.'' The 
union representatives continued, ``We can no longer stand silent in the 
face of elements of the Affordable Care Act that will destroy the very 
health and well-being of our members along with millions of other 
hardworking Americans.''
    I ask unanimous consent this letter be inserted into the record.
    [Chairman Roe: ``Without objection.'']
    Thank you, Chairman Roe.
    Finally, earlier this month the International Brotherhood of 
Electrical Workers and the National Electrical Contractors Association 
wrote to Chairman Kline, ``We cannot afford to sit on the sidelines as 
this law imposes increased benefit costs, fees, and new taxes on our 
plans. In addition, [the health care law] exempts all employers with 
less than 50 employees from offering health care coverage. This creates 
a vast competitive disadvantage for the 4,500 NECA contractors 
nationwide that responsibly provide coverage for their employees.''
    I ask unanimous consent this letter be inserted into the record.
    [Chairman Roe: ``Without objection.'']
    Thank you, Mr. Chairman.
    I believe we can do better than misguided policies that destroy 
full-time jobs. As public opposition grows, I am hopeful we can repeal 
the law and begin developing solutions that will lower health care 
costs and provide new opportunities for America's workers. Thank you 
again Mr. Chairman for holding this hearing.
                                 ______
                                 
    Chairman Roe. Thank you for yielding.
    I will now recognize Mr. Andrews, the ranking member, for 
his opening statement.
    Mr. Andrews. Thank you, Mr. Chairman and Chairman Walberg.
    I am pleased to be joined by my friend Joe Courtney who is 
the ranking Democrat on his subcommittee.
    I read the rest of Mr. Zuckerman's article that just got 
put into the record, and I want to read a part of it.
    He talks about his concerns about the health care law and 
then he says, and I am quoting--``What the country clearly 
needs are policies that will encourage the modernization of 
America's capital stock where investment in modern production 
has plunged to the lowest level in decades. Policy should also 
be targeted to nourish high tech industries, which in turn will 
inspire the design and manufacture of products in the United 
States. This means preparing a skilled workforce, especially 
engineers, suitable to work in manufacturing and increasing the 
number of visas available for foreign graduate students.''
    This I assume is the predicate to the 39th attempt to 
repeal the health care law. So far, the majority is 0-38. Now 
there are some other issues confronting the country as Mr. 
Zuckerman talks about: skilled workers to make our economy 
grow.
    Last week, the majority brought to the House floor an 
education bill that was opposed by the U.S. Chamber of Commerce 
because the Chamber of Commerce said it basically watered down 
standards and did not encourage the kind of skills American 
students need.
    An immigration bill that is broadly supported by business, 
law enforcement, evangelicals, civil rights communities, many 
others across the country that won 68 votes in the United 
States Senate sits stagnant in this body.
    As of now, there is no plan to move any kind of immigration 
bill to the floor that would in Mr. Zuckerman's words, 
``Increase the number of visas available to foreign graduate 
students.''
    So we are back again with half of an effort in which the 
majority criticizes what it does not like in the Affordable 
Care Act and that is what this morning I assume will be devoted 
to.
    It ought to be devoted to the second half of the effort 
though, and I am going to read from an article from Associated 
Press from last Friday.
    ``Three years after campaigning on a vow to repeal and 
replace President Obama's health care law, House Republicans 
have yet to advance an alternative for the system they have 
voted more than three dozen times to abolish in whole or in 
part.''
    My friend from Michigan just said he hopes we can, quote--
``begin working'' on an alternative.
    Officially the effort is quote--``in progress,'' and has 
been since January 19, 2011, according to gop.gov, a 
leadership-run Web site, but internal divisions, disagreement 
about political tactics, and the President's 2012 reelection 
add up to uncertainty over whether Republicans will vote on a 
plan of their own before the 2014 elections, or if not by then, 
perhaps before the President leaves office more than 6 years 
after the original promise.
    Now, ladies and gentlemen, I think we have a choice today. 
We can engage in yet another session where people say what they 
do not like about the Affordable Care Act, and that has value, 
but even if you don't like the Affordable Care Act, that only 
does half the job.
    And I would challenge each of the witnesses, if they in 
fact are opposed to the Affordable Care Act, and my friends on 
the Committee who are opposed to the act tell us what you would 
do instead.
    What is your plan?
    What is your plan to reduce health care costs? What is your 
plan to insure tens of millions of uninsured Americans? What is 
your plan to ensure greater consumer protections in the 
insurance industry? What is your plan to improve the quality of 
health care delivery in the United States of America? We would 
love to hear it.
    So I am sure we will--I read the written statements. They 
are all very good. I would certainly consent to them being put 
in the record in their entirety, and I would invite the 
witnesses--wing it. Tell us what you would do instead to make 
things better.
    I yield back.
    Chairman Roe. I thank the gentleman for yielding.
    I would now like to recognize Mr. Courtney for his opening 
statement.
    Mr. Courtney. Thank you, Chairman Roe.
    And thank you to the witnesses for being here this morning.
    Again, the chairman's opening comments talked in kind of 
dark foreboding terms about whether or not President Obama 
overreached constitutionally in terms of the postponement of 
the employer mandate tax.
    I would encourage all of my colleagues--as well as anyone 
listening--it would be helpful to just maybe pick up the phone 
and call the Congressional Research Service and ask them 
whether or not the IRS has the authority to postpone 
statutorily defined programs and whether or not they have done 
it in recent years.
    And the fact of the matter is the answer will be the report 
which I am holding in my hand which shows that four times in 
just recent years, the last 2 years, the IRS has postponed 
implementation of IRS programs, some under the Bush 
administration, some under the Obama administration, again, it 
is well-established law under the U.S. Code 7805, that the IRS 
has that authority.
    In this instance, after soliciting comments from employer 
groups all across the country, they made what I think was a 
commonsense decision which is that the definition of a 30-hour 
employee, seasonal employees was frankly still elusive and 
again, using well-established authority they delayed and 
postponed.
    And I would ask unanimous consent to have the CRS report 
admitted to the record.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Roe. Without objection.
    Mr. Courtney. Thank you, Mr. Chairman.
    In the meantime, events continue to chug along. The New 
York exchange announced last week and the headline in the New 
York Times is ``Health plan costs for New Yorkers set to fall 
by 50 percent.''
    Somebody who was a small employer just a very short time 
ago, that would be news that we would greet with great 
celebration, and again, without a mandate, people can shop now 
with a coherent, understandable marketplace and make those 
decisions for themselves and their employees.
    In the Hartford Current, where I come from in the state of 
Connecticut, federal health officials' rates on public 
exchanges are lower than expected, which again is the filings 
that we have in the state of Connecticut, again I would ask 
that these two articles also be admitted to the record with 
unanimous consent.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Roe. Without objection.
    Mr. Courtney. So the fact of the matter is, is that very 
shortly we are going to see rate filings which are below the 
Congressional Budget Office projections from 2010 in terms of 
the average cost of premiums.
    That should be our focus right now in terms of implementing 
and making sure that people are going to have the benefit of 
subsidies, small business tax credits, and a structured 
marketplace where private insurers--and by the way, we have a 
few of them in the state of Connecticut--are going to be able 
to sell their products in a much more user-friendly, small 
business-friendly fashion rather than the hieroglyphics that 
the existing marketplace presently calls for.
    And again, lastly, I have a letter from an employer in my 
district, Willimantic Waste with about 230 employees, which he 
submitted last night, actually applauding the President's 
decision saying that, yes, they did listen. We are excited and 
looking forward to the opportunity to let the exchange unfold 
and make its prices available for both their part-time 
employees and people in the community of Windham, which is a 
distressed area of the state of Connecticut.
    And I would ask that Mr. DeVivo's comments from the 
Willimantic Waste Paper Company, again, just supporting the 
President's decision, also be entered into the record.
    [The information follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Roe. Without objection.
    Mr. Courtney. That is my last one.
    Lastly, I would just say, you know, we are now holding a 
hearing on measures that we voted on last week. We were 
promised by the new majority regular order when they took 
control of this Congress. Not only is this bill rushed to the 
Floor without hearing, we are now holding a hearing after the 
fact. There is not a high school student council that would 
follow this type of process.
    Again, I appreciate the witnesses for being here today, but 
the fact of the matter is Mr. Andrews said, we have the poison 
of sequester seeping through the U.S. economy. We have 
infrastructure needs that need to be addressed. We have a CR 
looming. We have a debt ceiling looming. Seventeen days left 
until October 1st of legislative days, and we are now holding a 
hearing on a bill that already passed.
    I mean, give me a break.
    Again, thank you for being here. I look forward to the 
exchange. We can do this until the cows come home, but the fact 
of the matter is the real issues that face and the real 
challenges that face the U.S. economy are not being addressed 
here today in this committee room or any other committee room 
in the House of Representatives, and frankly, the public 
deserves better.
    I yield back the balance of my time.
    Chairman Roe. I thank the gentleman for yielding.
    Pursuant to committee Rule 7(c), all members of both 
subcommittees will be permitted to submit written statements to 
be included in the permanent hearing record.
    And without objection, the hearing record will remain open 
for 14 days to allow statements, questions for the record, and 
other extraneous material referenced during the hearing to be 
submitted in the official hearing record.
    It is now my privilege to introduce our witnesses.
    Our first is Ms. Grace Marie Turner, the president of the 
Galen Institute, a health care policy research organization 
located in Alexandria, Virginia.
    Welcome.
    Mr. Jamie Richardson is vice president of government and 
shareholder relations for the White Castle Systems, Inc. in 
Columbus, Ohio.
    Welcome.
    Mr. Ron Pollack is executive director of Families USA in 
Washington, D.C.
    Welcome, Mr. Pollack.
    And Dr. Douglas Holtz-Eakin is the president of the 
American Action Forum in Washington, D.C.
    Welcome.
    Before I recognize each of you to provide your testimony, 
let me briefly explain our lighting system.
    Y'all have been here many times. You will have 5 minutes to 
present your testimony. When you begin, the light in front of 
you will turn green. At 1 minute left, it will turn amber, and 
then when your time has expired, the light will turn red. At 
that point, I will ask you to wrap up your remarks as best as 
possible.
    After everyone has testified, members will each have 5 
minutes to answer questions and because this is a combined 
hearing, I am going to stick pretty closely to the 5 minutes.
    So first, I would like to thank you for being here, and I 
will start with Ms. Turner.

     STATEMENT OF MS. GRACE-MARIE TURNER, PRESIDENT, GALEN 
                   INSTITUTE, ALEXANDRIA, VA

    Ms. Turner. Thank you, Chairman Roe.
    Thank you, Chairman Walberg.
    Thank you to Ranking Member Andrews, Ranking Member 
Courtney, and to Chairman Kline, and members of the committee 
for the opportunity to testify today.
    I am Grace-Marie Turner, president of the Galen Institute. 
We are a nonprofit research organization focusing on free-
market ideas for health reform and have been working for 20 
years on market-based solutions, including a book called 
``Empowering Healthcare Consumers Through Tax Reform.''
    I would welcome the opportunity to talk with you about some 
of our ideas.
    Businesses large and small across America have been making 
painful decisions to lay off employees, cut workers' hours, and 
make do with fewer workers than they really need. This is not 
what you would expect in a recovering economy.
    The clear distorting fact is the Affordable Care Act, 
especially the employer mandate. The decision by the 
administration to delay the reporting requirements for the 
mandate were certainly welcomed by business, but they also add 
to the questions and the concerns that both employees and 
employers have about the law.
    The statute does say that the mandate is to begin in 2014, 
not 2014--2015, as the administration is now directed. Because 
of the House vote last Wednesday the house did pass legislation 
to give the administration legal authority to postpone the 
mandate; however the administration said in a puzzling 
statement of administration policy that the President would 
veto the legislation to delay the mandate should it reach his 
desk even though he had delayed the mandate administratively. 
No wonder businesses are confused.
    CMS administrator, Marilyn Tavenner--I do think it is still 
relevant to discuss this because businesses are impacted, plans 
had been made in preparation for the 2014 trigger date, and CMS 
administrator, Marilyn Tavenner was asked--testified last 
week--if she was consulted, and she said she was not.
    You did invite Howard Shelanski from the Office of 
Management and Budget who said their office is not involved, 
and therefore, wouldn't testify.
    And the commerce committee of Michael Burgess questioned 
the treasury official last week to ask him about the timeline 
of the decision. The official was not able to provide the date 
of the decision, who made it, and whether that person was in 
the Treasury Department or the White House.
    Certainly a decision with this significance and this much 
impact on both the law and other aspects of the law as well as 
businesses needs to have been reviewed and vetted thoroughly.
    Employers are more confused than ever.
    A recent survey by the U.S. Chamber of Commerce found that 
71 percent of the small businesses say the health law will make 
it harder for them to grow. An earlier Gallup poll found that 
41 percent of the small businesses had frozen hiring because of 
the law. One in five said that they had already reduced the 
number of hours for their employees ``as a specific result of 
the Affordable Care Act.''
    While most employers want to provide health insurance, not 
all can and still keep their prices competitive. For companies 
with very tight profit margins, the mandate can send their 
bottom lines from black to read.
    Some critics have argued that if all businesses were forced 
to provide health insurances and raise prices, they would not 
lose customers because everybody would be operating on the same 
ground rules, but customers are smarter than that. They will 
postpone or delay purchases. They will substitute and that 
business would simply vanish.
    A 1-year delay in the reporting requirements for the 
employer mandate is largely irrelevant some say, but offering 
insurance isn't the same as people accepting insurance.
    Our proponents of the mandate and the law say that because 
97 percent of business, large companies that are subject to the 
mandate, already provide health insurance that it really 
doesn't matter because it is not going to change their 
behavior.
    But a study by Duke University professor Chris Conover has 
found that 46 percent of the uninsured actually work for these 
large firms, the great majority of which are due to provide 
health insurance. So this delay and the mandate really do have 
a significant effect.
    And while the law tried to lock in employer coverage, it 
may very well have the opposite effect of incentivizing 
employers to drop it instead. They just have another year to 
make their plans.
    Further, the health law is redefining a full-time work week 
as 30 hours, rather than 40, and we heard as Chairman Walberg 
said even our organized labor is very upset about this 
redefinition.
    Many small businesses are already cutting workers' hours 
back to 25 hours because they know with some slack in shifts, 
that they could get to the 30 hours. If you were to--there are 
some proponents of changing the definition, amending the law to 
say it is a 40-hour work week.
    I recommend that you not do this because employers will 
then say, well let's just have this; they will say well, we 
have to cut hours to 35 hours. You are going to continue to 
chase this. The only solution is repealing this law and 
repealing particularly the mandate.
    The risk complexities and delays and confusion surrounding 
Affordable Care Act strongly indicate that the only responsible 
path is to delay implementation of the exchanges and related 
subsidies especially until taxpayers can be assured that this 
money is being spent wisely.
    And one final thought; Congress could authorize funds to 
help states develop or strengthen high risk pools so people 
with pre-existing conditions who are waiting for the exchange 
coverage to begin on January 1 could get coverage immediately.
    Thank you, Mr. Chairman, for the opportunity to testify.
    [The statement of Ms. Turner follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Roe. Thank you, Ms. Turner.
    Mr. Richardson?

  STATEMENT OF MR. JAMIE T. RICHARDSON, VICE PRESIDENT, WHITE 
               CASTLE SYSTEM, INC., COLUMBUS, OH

    Mr. Richardson. Thank you, Chairman Roe and Walberg, 
Ranking Members Andrews and Courtney, and members of the 
Subcommittees on Health, Education, Labor, and Pensions and 
Workforce Protections of the House Education and Workforce 
Committee. Thank you for the chance to testify regarding 
employer mandate and the impact a recent announcement of 
transition relief on employers and employees
    My name is Jamie Richardson. I serve as vice president of 
White Castle, which means I get to sell hamburgers for a 
living. It is an honor to be here and share our perspective on 
behalf of our company and the National Restaurant Association.
    White Castle is the taste America craves. We believe good 
business, great food, and responsible citizenship should all go 
together. At White Castle, we first opened our doors in 1921, 
and to this day, we are a family-owned, privately-held company.
    The majority of our nearly 10,000 team members work in our 
406 restaurants across 12 states. At White Castle, we put 
people first. We have offered a health insurance program and a 
benefit since 1924.
    Our benefits package is one of the main reasons so many of 
our colleagues remain with the company for so long; 27 percent 
of our team members has been with us 10 years or more. More 
than one in four have been with us 10 years or more.
    We are proud of that fact, but we are humbled by their 
loyalty, and we are committed to continuing to make White 
Castle a rewarding place to be.
    As restaurants throughout the country implement new 
requirements of the health care law, we face unprecedented 
challenges that must be addressed. We are committed to 
addressing those challenges, and to do that effectively, we 
need Congress' help.
    Allow me to be frank.
    First, the definition of full-time employee in this law 
does not reflect our workforce needs or our employees' desire 
for flexible work schedules.
    Second, the calculation to determine whether a business is 
a large or small employer is unnecessarily complicated and 
especially burdensome for small businesses.
    Third, automatic enrollment must be eliminated to avoid 
confusion and potential financial hardship for employees and an 
increased burden for employers.
    I would like to tell you today that White Castle's growth 
has continued uninterrupted. I would like to tell you we have 
continued to open more restaurants in more neighborhoods 
providing more jobs and serving more customers.
    I would like to tell you that, but I can't. In fact, White 
Castle's growth has halted.
    Last year when I testified before the House Oversight and 
Government Reform Committee, we had 408 White Castle 
restaurants. Today, we have 406.
    In the 5 years prior to the health care law, we were 
opening an average of eight new White Castle restaurants each 
year. In 2013, we plan to open just two.
    While other factors have slowed our growth, it is the 
mounting uncertainty surrounding the health care law that has 
brought us to a standstill.
    In addition to the employer-shared responsibility section 
of the law, the employer reporting requirements are key for 
employers. The two requirements make up a large part of what 
employers must do to comply with the law.
    The administration's July 2 announcement and July 9 IRS 
notice 2013-45 provides transition relief and voluntary 
compliance in 2014 for the employer reporting requirements 
under Tax Code Section 6055 and 6056, and hence the employer 
shared responsibility requirements employer mandate under Tax 
Code Section 4980H.
    As early as October 2011, the National Restaurant 
Association, as part of the Employer for Flexibility and 
Healthcare Coalition submitted comments requesting transition 
relief.
    Proposed rules on the employer mandate were published in 
the Federal Register on January 2, 2013, but employers have 
been waiting for rules or guidance on employer reporting.
    We welcome this transition relief to understand and comply 
with the rules on reporting and how it interacts with the 
mandate and employer mandate rules.
    Employers need rules with enough lead time to set up 
systems that will track data on each full-time employee and 
their dependents and then report this data to the IRS annually.
    We are eager to see the proposed rule that the 
administration's stated it plans to issue later this summer.
    Of particular concern are the flow of information and the 
timing of reporting and communication employers must make to 
multiple levels and layers of government. Streamlining employer 
reporting will help simplify the process.
    Restaurants and other employers have advocated for a common 
sense, single, annual reporting process by employers to the 
Treasury Department each January 31.
    That would provide perspective general plan information and 
wage information to the affordability Safe Harbors as well as 
retrospective reporting as required by Tax Code Section 6056 on 
individual full-time employees and their dependents.
    To conclude, while we appreciate the transition relief, 
restaurants across America still face challenges only Congress 
can address; the definition of a full-time employee, the 
determination of who is an applicable large employer under the 
law, and the elimination of the automatic enrollment provision.
    We are both proud and grateful for the responsibility of 
serving America's communities, creating jobs, boosting the 
economy, and serving our customers. We are committed to working 
with Congress to find solutions that foster growth and truly 
benefit the communities we serve.
    Thank you.
    [The statement of Mr. Richardson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Roe. Thank you, Mr. Richardson.
    Mr. Pollack?

STATEMENT OF MR. RON POLLACK, EXECUTIVE DIRECTOR, FAMILIES USA, 
                         WASHINGTON, DC

    Mr. Pollack. Chairman Roe, Walberg, Ranking Members Andrews 
and Courtney, Chairman Kline, Ranking Member Miller, in my 
written testimony I covered three topics.
    One, the numerous ways the Affordable Care Act is already 
providing significant benefits and protections for many 
millions of Americans.
    Two, the additional and even more significant ways that the 
Affordable Care Act will provide meaningful help for an 
increasing number of Americans.
    And number three, how the 1-year delay of the employer 
mandate is much ado about very little.
    I will be happy to respond during the Q&A session about the 
sky is falling rhetoric about how the Affordable Care Act 
impacts on jobs.
    With respect for the committee's time, I will not repeat 
the written testimony that was submitted to the committee in 
advance and suffice, it will be in the record.
    Instead, I hope it will be helpful to offer a frank 
perspective about the current context of the continuing debate 
about the Affordable Care Act.
    A number of months ago, after the November elections, 
Speaker Boehner appropriately said that the Affordable Care Act 
is the law of the land. However, both before and since that 
time, opponents of the Affordable Care Act have demonstrated an 
obsession about obstructing the law of the land.
    This obsession with obstruction has taken at least eight 
forms and they are often absurd, in some instances ironic, and 
all are contrary to the best interests of families across 
America.
    The first and most farcical manifestation of this obsession 
is the repetitive, perhaps unprecedented and certainly futile 
series of repeal votes here in the House. By most counts, it is 
now 39 such votes.
    Second, people across America have been subjected to an 
incessant barrage of false charges about Obamacare. Most 
obvious and pernicious has been the claim that the legislation 
creates death panels. Other examples abound.
    Third, opponents of the Affordable Care Act have pushed 
states to refuse to set up new health insurance marketplaces. 
Most ironically, it has been these efforts that have caused the 
federal government to set up the marketplaces instead, 
something that one might think is anathema to conservative 
thinking.
    Fourth, some Obamacare opponents have filed two federal 
lawsuits to prevent middle class and moderate income families 
in states with federal marketplaces from receiving tax credit 
premium subsidies. Here again, irony is rampant.
    Even though they are unlikely to succeed, if they did 
succeed, it would be taxpayers in the most conservative states 
that would be harmfully affected.
    Fifth, Obamacare opponents are attempting to prevent states 
from implementing the Medicaid expansion. Tragically, in the 
states that have not yet committed to the expansion, many 
millions of those in greatest need in America will continue to 
be uninsured.
    Thankfully, nine conservative Republican governors have 
said this is helpful for their states.
    Sixth, the Senate's Republican leaders sent letters to the 
commissioners of national sports leagues, the NFL, NBA, Major 
League Baseball, urging them to refrain from informing their 
fans about new opportunities under the Affordable Care Act.
    Seventh, state legislative opponents of Obamacare have 
promoted and in a number of instances adopted legislation 
designed to impeded church and social service agencies from 
helping Americans learn about the benefits of the Affordable 
Care Act.
    These new laws are absurdly designed to force such public 
spirited groups to secure licenses before they can go about 
their public education efforts.
    And eighth, the conservative group, FreedomWorks, is 
campaigning to get young adults to opt out of coverage with 
online video training and educational manuals to spread the 
word on college campuses. The campaign is called ``Burn Your 
Obamacare Draft Card.''
    These efforts demonstrate a clear and perhaps unprecedented 
obsession with obstructing the law of the land, and they may 
reflect desperation because the clock is ticking.
    Americans will soon receive significant new benefits and 
protections and will understand how the Affordable Care Act can 
improve their lives as the first coverage enrollment periods 
begin in October and benefits become available in January.
    This obsession with obstruction is unworthy of America's 
families across the nation. Hopefully, in the not-too-distant 
future, this obsession with obstruction will end.
    Moving forward, since no legislation, including the 
Affordable Care Act, is perfect, it will be far more productive 
if the law's many proponents and opponents work together and 
constructively to improve the law and help to strengthen 
America's health care system.
    We look forward to participating in that process.
    [The statement of Mr. Pollack follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Roe. Thank you, Mr. Pollack.
    Dr. Holtz-Eakin?

   STATEMENT OF MR. DOUGLAS HOLTZ-EAKIN, PRESIDENT, AMERICAN 
                  ACTION FORUM, WASHINGTON, DC

    Mr. Holtz-Eakin. Thank you Chairman Roe and Walberg, 
Ranking Members Andrews and Courtney, and Chairman Kline, 
Ranking Member Miller, for the chance to be here today. It is a 
great privilege.
    Clearly, the employer mandate is going to have strong 
incentive effects on growth and employment, the mix of full and 
part-time, and the kind of compensation workers will receive.
    It has been well-recognized that for example, in large 
firms, those above 50, the best outcome one can get is zero, 
and that would be a firm that is already offering coverage to 
everyone and it satisfies the requirements of the law, and the 
law has no impact; it is redundant.
    Past that and as Grace-Marie Turner pointed out, about 46 
percent of the uninsured in these large firms, there will be 
impacts on them. They will have to cover health insurance 
costs. Those resources will compete with the chance to hire or 
otherwise expand payrolls. In small firms, there is a sharp 
cliff at 50 employees where you would expect growth to be 
impacted.
    Below that, the very tax credit that is meant to ameliorate 
the impact of the mandate in fact has quite perverse growth 
incentives, penalizing those firms that grow above 25 
employees, penalizing those firms that pay higher average 
wages. All of this is a strong anti-growth impact from the 
mandate itself.
    This takes place in the context of the other taxes, roughly 
$1 trillion over the next 10 years and regulations embodied in 
the Affordable Care Act, it is hard to describe this as a pro-
job growth piece of legislation.
    We have heard a lot of testimony and the incentives are 
quite clear under the mandate to move to part-time employees 
and the data are quite clear that we are seeing an increasing 
trend toward part-time employment in the United States. All 
that remains is for scientific studies to link the two closer 
together. It is conjecture at this point, but it is quite 
strongly persuasive.
    The third impact is on the kinds of compensation that 
employees will get. Obviously, a requirement to provide health 
insurance moves the mix toward insurance and away from cash 
wages at a time when we have seen a stagnation in the cash 
wages of American workers. Median family incomes have declined 
during this recovery for example and this will impede the 
growth even further.
    This has the strongest impact on low-wage workers. Imagine 
a minimum-wage worker whose employer is required to cover 
health insurance. You can't lower the cash wages of that 
individual. Instead, there is an incentive to no longer employ 
them or move them to part-time employment. It is bad news for 
the worker.
    Or, and this is one of the most striking impacts, the 
arithmetic is quite compelling that for workers up to about 300 
percent of the poverty line, it is in the combined interest of 
the employee and the employer to arrange for that individual to 
get their insurance in the exchanges and pick up the federal 
subsidies.
    As result, one would expect that to the extent firms and 
workers pursue this, we would see churn not only in their 
insurance coverage, but in the provider networks underneath 
that; nothing that anyone describes as a desirable outcome from 
a health policy point of view.
    These incentive effects have been in the law from the first 
drafts and have been quite broadly discussed. We are now 
starting to see evidence of these impacts. The most strong 
evidence that we have to date are the polls, some of which are 
included in my written testimony, where employers are reporting 
that they have in fact pulled back on their hiring, moved to 
part-time workers, are worried about the costs of the health 
care law, and that this is impeding their business operations.
    The decision to waive enforcement for a year doesn't change 
any of those basic long run incentives, and I think it is the 
strong reading of the economics literature that permanent 
incentives have much stronger impacts than temporary ones.
    We have been through this debate in the context of stimulus 
where one-time policies often don't have much bang for the 
economic buck and we will see that again in this context.
    To the extent that there will be an impact, the one thing 
it does do is for those employers who have decided to get out 
of the business of providing health insurance, they have a 1-
year firesale on the chance to do that. There is no penalty. 
They can accelerate their movement of employees into the 
exchanges.
    This would raise the taxpayer cost clearly more quickly 
than it would otherwise, and given the sort of knock-on effects 
of this lack of enforcement on the ability to collect 
information about the eligibility for subsidies, on the size of 
subsidies, when we expect the taxpayer costs to be larger than 
it need be, and there is also some concern that it would impact 
the ability to enforce the individual mandate. The lack of 
complete reporting will be difficult in 2014.
    So this is a--the mandate has been a contentious issue from 
the beginning. The waiver is again, just bad news. There is no 
good news here from the point of view of employees and 
employers trying to grow and provide the compensation packages 
that they want.
    Thank you.
    [The statement of Mr. Holtz-Eakin follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Roe. Thank you, Dr. Holtz-Eakin.
    Mr. Walberg?
    Mr. Walberg. Thank you, Mr. Chairman.
    If I might, the distinguished ranking member mentioned the 
efforts in the House to repeal Obamacare and also to address 
some of the concerns especially the closing concerns of Mr. 
Pollack.
    I would like unanimous consent to insert into the record a 
list of seven House-passed bills President Obama signed into 
law that repeal or defund parts of Obamacare.
    [The information follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Roe. Without objection.
    Mr. Walberg. Dr. Holtz-Eakin, 75 years ago, the Fair Labor 
Standards Act was established and it established a 40-hour work 
week for purposes of federal overtime requirements. The 
President's health care law is the first and only federal law 
that considers a full-time employee is one that works 30 hours 
a week or more.
    I would like, if you could, to expand your thoughts as to 
how this provision as well as the rest of the employer mandate 
act as a disincentive for hiring employees in positions over 30 
hours a week.
    Mr. Holtz-Eakin. Well, the arithmetic is quite clear. You 
will have to incur substantial health care costs if you have 
full-time employees.
    I promise you that employers think about this. It is 
absolutely in their fiduciary obligations to look at both the 
continuation of coverage and the continuation of full-time 
employment.
    I did it as an employer at a think tank. You have to look 
at this. So I think there is a concern.
    It also makes it more complicated. You are now complying 
with two sets of regulatory standards, one at 40, one at 30. It 
makes life harder for small businesses, many whom are not 
expert in compliance with federal regulations.
    So I think, you know, the notion that this is going to be a 
good news story either for the total number of employees or the 
number of full-time employees is it just hard to make.
    Mr. Walberg. Mr. Richardson, if your employees like their 
health care coverage, will they be able to keep it? You have 
had coverage since 1924.
    Mr. Richardson. We have had coverage since 1924, and our 
full-time team members are eligible and 80 percent of those 
team members take the coverage.
    The biggest challenge for us right now is this new 
definition of full-time. You know, we chose to use 35 hours as 
a full-time definition.
    When we look at what this will translate to, our highest 
hope is to allow everyone who has benefited from that insurance 
to be able to hold onto it, but when we look to the future, we 
can't foresee a future where we are able to hire new hires as 
full-time employees.
    We think transparency equals trust and so our focus is 
going to be on for those who have the insurance, doing 
everything we can within our power to make sure we are still 
providing that, but that for new hires, we tell them coming in, 
we are not going to be able to provide that because we are 
hiring you as part-time, which we would schedule it around 25 
hours a week.
    Mr. Walberg. Okay.
    Transparency, you mean trust, I must chastise you for 
wearing that tie that is causing a craving for sliders in me 
right now with hundreds of White Castle sliders on that tie, 
but I will forgive you.
    Mr. Richardson. We were aiming for subtle, but I am glad 
you picked up on it.
    Mr. Walberg. I picked up on it.
    Mr. Richardson, for many months now the top concern that 
employers and employees throughout Michigan tell me about is 
that employer mandates, 30 hours equivalency for full-time 
employment is leading to less opportunity, less take-home pay, 
and losses of health insurance.
    Last month I had the opportunity to question the Secretary 
of Health and Human Services, Secretary Sebelius, as to the 
devastating economic effect of this new requirement.
    She told me and this committee that since the benefits 
didn't start until January 1 of 2014, she was, and I quote--
``Not at all confident that some of the speculation of what may 
or may not happen will actually happen.''
    And so, Mr. Richardson, are the loss of hours and health 
benefits caused by this law just speculation in the restaurant 
industry?
    Mr. Richardson. In restaurants across America, we are 
concerned. We were thankful for some temporary relief, but it 
is beyond concern. It is extreme anxiety because we know the 
costs that are coming are real.
    Just the change in the definition of full-time for White 
Castle alone, and we literally sat in meetings the last week in 
June talking about this before the July 2 announcement, but 
when we look at the band of team members we have between 30 and 
35 hours and calculate the added cost, we are looking at a 35 
percent increase in our cost for health insurance to be able to 
provide a greater number--
    Mr. Walberg. So this has a huge effect on your planning, as 
well, in moving forward?
    Mr. Richardson. Yes. We invest $30 million a year in our 
health insurance program and it would be north of $8 million or 
$9 million more per year.
    Mr. Walberg. And you have already said it is cutting back 
on the number of new stores that you plan to put in place.
    Mr. Richardson. It stopped us in our tracks when it comes 
to growth and expansion.
    Mr. Walberg. I thank each of the witnesses and I see my 
time is ending, so I will yield back.
    Chairman Roe. Thank the gentleman.
    Yield to Mr. Andrews?
    Mr. Andrews. Thank you.
    I thank the witnesses. I want to talk about a family where 
you have two working adults and they make $45,000 a year. And 
one of the adults works for a business with 100 employees; she 
is one of 100 employees at her business.
    The family doesn't have health insurance--they have a 
couple of children--because neither of the employers offer 
health insurance that the two adults work for. Does everyone on 
the panel agree it should be a goal of our national policy to 
get that family health insurance? Anybody disagree with that?
    Okay.
    Ms. Galen--Ms. Turner, excuse me, how do you think we 
should do that? How should we get that family covered?
    Ms. Turner. The most important thing is to make that 
insurance affordable for families. As I said in my testimony, 
the chances that one or the other of those parents, those 
working adults, may have health insurance offered to them in 
the workplace; it is considerable.
    Mr. Andrews. Let's talk--in my state, that family would pay 
at least $15,000 for a decent policy. So they have an income of 
$45,000 gross. How do we get them the policy? What do you think 
we should do?
    Ms. Turner. I think that we need to reform the tax 
treatment of health insurance significantly to provide a 
greater incentive for people to purchase--
    Mr. Andrews. What does that mean? You wrote an article in 
2009 that talked about I guess a credit for that family of 
$5,700. Do I have that right?
    Ms. Turner. That was one of the proposals at the time. I 
think if you were to provide a refundable--
    Mr. Andrews. Okay. You did that. Let's go with that 
proposal. Let's go with that for a second.
    That would cover $5,700 of the cost, but what about the 
other $10,000 or so? Where should that come from?
    Ms. Turner. I believe, first of all that health insurance 
will become much more affordable if people were purchasing the 
policies themselves, if the policy were portable, if they were 
able to buy a longer-term contract with that health insurance, 
and the family was able to make decisions about what they 
wanted as far as deductibles, expansion of networks, et cetera.
    Mr. Andrews. Of course, the reality is that 95 percent of 
Americans live in a health insurance market today where the top 
two companies have at least 85 percent or 90 percent of the 
market share, so the kind of competition that would drive that 
down doesn't really exist.
    How would you induce the competition among insurers to 
drive that cost down?
    Ms. Turner. If people were not confined to the health 
insurance policies in their states, they would have a broader 
range of coverage if they were able to purchase coverage across 
state lines--
    Mr. Andrews. Of course, under the Affordable Care Act, the 
exchanges permit any insurer who wants to come into a state 
exchange and compete to do so. So doesn't the Affordable Care 
Act solve that problem?
    Ms. Turner. Only with the limited band of bronze, silver, 
gold, platinum policies. People need a much broader range of 
policies to find policies that are affordable to them--
    Mr. Andrews. Go back to your $5,700 proposal. Where would 
the money come from to pay for that? I also read that you have 
a $5,000 debit card for low income people, whatever that means. 
Where would the money come from to pay for this tax credit for 
people?
    Ms. Turner. We currently spend--current tax subsidy for 
health insurance for people that get health insurance at the 
workplace is about 250 billion a year and it is very 
regressive. It goes disproportionately to people with higher 
incomes and with better paying jobs--
    Mr. Andrews. So you would reallocate that.
    Ms. Turner. I would reallocate that so that more of that 
money would go to people--
    Mr. Andrews.--Mr. Richardson's company deducts the health 
insurance costs for himself and his fellow employees, you would 
do away with that deduction?
    Ms. Turner. I would not change the employer deduction for 
health insurance. If they want to continue to offer it, it is a 
form of compensation for employees. The employee exclusion 
however could be portable--
    Mr. Andrews. So you would keep the employer deduction, so 
he gets to continue to do that, but the employee exclusion 
would be done away with.
    Ms. Turner. Yes. Would be replaced.
    Mr. Andrews. So if Mr. Richardson's employer still provided 
him with health care, you would tax him on the value of that 
payment that they made?
    Ms. Turner. We would readjust the tax system--
    Mr. Andrews. You would raise his taxes, basically.
    Ms. Turner. He gets his $5,700 tax credit rather than a 
deduction which this family of making $45,000 a year would get 
a very small portion--
    Mr. Andrews. Do you think this could be paid for all within 
the realm of the--you said $300 billion not $250 billion in 
your article--all within the realm of the $300 billion 
expenditure a day? You wouldn't have to go beyond that?
    Ms. Turner. Absolutely. I don't think the people who are 
making $250,000 a year, half a million dollars a year need to 
get the most generous tax benefits for health insurance or the 
exclusion.
    Mr. Andrews. So you would raise their taxes to pay for 
them.
    Ms. Turner. They will do just fine for themselves. This 
family making $45,000 a year needs help and they need more help 
than they are getting now and will get from the Affordable Care 
Act.
    Mr. Andrews. It is kind of interesting that your proposal 
is to provide tax subsidies to people paid for by a tax on 
higher income people which is of course what the Affordable 
Care Act did.
    I yield back the balance of my time.
    Chairman Roe. I think the gentleman for yielding.
    Dr. DesJarlais?
    Mr. DesJarlais. Thank you, Mr. Chairman.
    Ms. Turner, we will continue with you. What do you believe 
is the biggest burden for employers in Obamacare?
    Ms. Turner. Oh my goodness, that is a big list. Obviously, 
the one at the table is this employer mandate because it is so 
distorting. You know, really causing employers it have to 
redesign their workforces.
    I was looking at some Labor Department numbers, Dr. 
DesJarlais, that showed that last year there were six full-time 
workers hired for every one part-time employee.
    This year, there is a one full-time employee for every four 
part-time employees. It has absolutely flipped. Employers 
already are being forced to make decisions. It is hugely 
distorting, but I would say that they would tell us what they 
told us all along. The biggest issue is cost.
    Mr. DesJarlais. What would you suggest that we as members 
of Congress can do to help alleviate this?
    Ms. Turner. The first thing is to not only convince the 
Senate to delay the employer mandate to buy us time and the 
individual mandate, I believe they are tied together, to buy us 
time to really rethink and get to a system that would provide 
health insurance for this family making $45,000 a year in a way 
that allows them to choose the kind of policy they want, allow 
that policy to be portable, not have them be tied to the 
workplace to get that job, to get that policy.
    Mr. DesJarlais. Your testimony addressed the recent 
comments made by union leaders stating that Obamacare will 
destroy the 40-hour work week and harm the middle class.
    Can you please explain why the unions are concerned about 
the law and the effects of Obamacare has on their members?
    Ms. Turner. You know, the unions seem to have believed that 
the main benefit of the law would have been to not only provide 
health insurance, universal coverage, I believe that is really 
an important goal, but to also allow people to have health 
insurance that as I said, don't have it now.
    But they are--they didn't focus on the issue of how this is 
going to affect multiple employee welfare associations where 
they provide health insurance for clusters of smaller companies 
and they are not going to get the--they have no eligibility for 
subsidies as others do who go to the exchanges directly.
    They believe that this will make their employees less 
competitive than employers who are not unionized who can go to 
these exchanges for their coverage.
    So they have seen and they have also seen the huge cost of 
these mandates and this coverage and they are saying, wait a 
minute, nobody told us about this.
    Mr. DesJarlais. Thank you.
    Mr. Holtz-Eakin, has anything changed for employees or 
rather employers in light of the administration's recent 
decision to delay the employer mandate for 1 year?
    Mr. Holtz-Eakin. Nothing fundamental. They face the same 
long run incentives that they had prior to the waiver. As I 
mentioned in my opening remarks, the only thing that has really 
happened is there is an incentive to move more quickly if you 
are choosing to get out of the business of providing employer-
sponsored insurance and that, I think, is a real concern.
    Mr. DesJarlais. Thank you.
    Mr. Richardson, as vice president for government and 
shareholder relations for a multistate business, can you speak 
to anything in the new law that will offset cost and reduce 
coverage expenses for your company?
    Mr. Richardson. For us, as we have looked at the law, we 
see and predict big cost increases and that is where our 
anxiety has been. I think in some ways if this were a rock 
opera, some might think it is ``Stairway to Heaven.'' For a lot 
of us in the employer community, it feels more like ``Highway 
to Hades.''
    But maybe now it is time to take a sad song and make it 
better because we think this time is giving us a chance to fix 
the parts of the law that really are unworkable and are really 
going to make it difficult for us to continue to employ people 
and create jobs. So that is where we are hopeful.
    Mr. DesJarlais. All right. From Led Zeppelin to AC/DC and 
we have the Beatles. Very good.
    What would you say is the biggest impediment to providing 
low-cost health coverage for your employees?
    Mr. Richardson. For us, the biggest impediment is the 
impending law and just trying to understand what it means. As a 
company that fights each day for 10,000 employees, we have 
invested in health care since 1924. So it is a commitment we 
have made and make and we have allowed that to be a big focus 
for us because we enjoy the flexibility it provides us in terms 
of having that dialogue with our team members. So being the 
mandate part is difficult.
    Mr. DesJarlais. Okay, thank you.
    My time is about to expire.
    Thank you all for your comments.
    I yield back.
    Chairman Roe. Thank the gentleman for yielding.
    Mr. Courtney?
    Mr. Courtney. Thank you, Mr. Chairman.
    Mr. Pollack, in your litany of benefits in your written 
testimony regarding the Affordable Care Act, again, you listed, 
in my opinion, an impressive array of benefits for young 
Americans, 3 million who now have coverage because of the age 
26 modification, which again would have been obliterated in one 
of the iterations of the Repeal Obamacare Act; the seniors who 
are getting help from the donut-hole, which again is this 
gaping, 100 percent deductible created in the Medicare act a 
number of years ago; the medical-loss ratio measure.
    Again, my hometown of Vernon, Connecticut received $170,000 
refund for its health plan, for its town employees that 
actually helped fill a budget hole in their Board of Education 
account.
    So again, there are many, many benefits which have already 
occurred since 2010, but I would like to again, go back to Ms. 
Turner's comment that in terms of employers, the biggest issue 
is obviously cost of health care.
    And since 2010, I mean, isn't it a fact that we are 
actually seeing an historic lower rate of growth in terms of 
the health care system as a whole, but in particular in terms 
of the Medicare system?
    Mr. Pollack. Mr. Courtney, I was sitting somewhat bemused 
by some of the comments about, in effect, the sky is falling 
with respect to employment opportunities as a result of the 
Affordable Care Act.
    The data says something very differently. If you look at 
the Bureau of Labor Statistics, since March 2010, when the 
Affordable Care Act passed, over 90 percent of the gains in 
employment are due to additional full-time positions, not part-
time positions.
    Over the past 12 months, ending June of 2013, 116,000 
additional workers per month were in full-time jobs while just 
16,000 additional workers per month in part-time jobs. And the 
average work week actually since June of 2009 has increased by 
0.7 hours, it is now approximately the same as it was prior to 
the recession.
    But what is actually interesting is we have had experiences 
with legislation like the Affordable Care Act in Massachusetts 
and in Hawaii. So let's take a look at what has happened in 
Massachusetts and Hawaii. According to the Urban Institute, in 
Massachusetts there has been no evidence of significant shifts 
toward part-time work compared to the rest of the nation.
    Now in Hawaii, they don't have a 40-hour requirement or a 
30-hour requirement. They have a 20-hour requirement in Hawaii 
which requires all employers to provide coverage for those 
workers with employment of 20 hours a week.
    There has been only a 1.4 percent increase of employees 
working less than 20 hours a week and we have now seen studies 
from the University of California's Labor Center that workers 
at greatest risk of work hour reduction represents at most, 1.8 
percent of the U.S. workforce. So the sky is not falling.
    Mr. Courtney. And again, just to go back to my--just the 
cost growth though, I mean, is also a very encouraging trend 
that is out there in terms of just overall health care costs 
and the Medicare system in particular.
    Mr. Pollack. Yes, there is no question that what we have 
seen with respect to cost, Medicare is a perfect example, there 
has been a moderation of increase in cost.
    Now I can't say to you that is due completely to the 
Affordable Care Act. I think that would be a clear 
exaggeration. Certainly, some of this has to do with what 
happened in the recession and some people seeking less health 
care.
    But certainly, the Affordable Care Act has had a salutary 
impact with respect to it. Again, I am not saying it is the 
full reason, but it certainly is a part of the reason.
    Mr. Courtney. And that is exactly what Mr. Holtz-Eakin's 
successor reported recently, which is that again, some of the 
moderation in the Medicare cost growth was ACA-related, 
particularly in terms of the moderation of payments to the 
managed care plans.
    So there, you are right. You can't ascribe all of it to 
that, but clearly it hasn't aggravated the situation and things 
like hospital readmission policies, which is again, costing 
more efficiencies in the health care system with again, smarter 
reimbursement to providers of managed care services.
    CBO has definitely concluded that has had a beneficial 
effect in terms of moderating cost growth, which is what I 
think everybody wants.
    Mr. Pollack. And it certainly is a wholesome thing for us 
to be paying more for quality of care than quantity of services 
and that is a direction we are taking incrementally and I think 
that is going to be very helpful.
    Thank you.
    Chairman Roe. I thank the gentleman for yielding.
    Dr. Heck?
    Mr. Heck. Thank you, Mr. Chairman.
    Thank you all for being here today and providing your 
testimony.
    Like Mr. Richardson, I have a friend who owns a restaurant 
chain where I live in Nevada; certainly nothing to the scale of 
White Castle, but had five outlets, was in the process of 
building his sixth and in the five outlets that he had, he had 
about 250 employees, provides some insurance, but his insurance 
does not meet the new essential benefit requirements.
    So I was asking him, ``What are you going to do? What are 
you going to do to meet the requirements of the law?'' He said 
well, he could change his plan to meet the essential benefits 
requirements which would then increase the cost.
    He could adjust the hours; you know, he has got a big 
concern about the 30-hour work week especially in a restaurant 
business where it is a second job for some, or there are 
college students and they like the flexibility of being able to 
work 18 hours this week, 32 hours the next week.
    So that was going to cause him an increased cost for 
bookkeeping as well as all of the other costs associated with 
the regulatory compliances or he would pay $420,000 a year in 
his penalty, and he had to decide which one would actually be 
more cost-effective for him because his concern was he didn't 
want to stop providing the insurance.
    He wanted to do what was right for his employees and 
continue to provide his insurance that his employees had that 
they enjoyed; didn't necessarily meet the requirements, but 
that was his option.
    Increase the cost by changing the policy and all of the 
regulatory burdens or just getting out of it and paying a 
$420,000 fine.
    As I mentioned, he was doing this--we had this discussion 
while he was building his sixth outlet and I asked him, ``If 
you knew all this was going to happen before you broke ground 
on your sixth outlet, would you have added it?'' He said, 
``Absolutely not,'' and that would have been another 50 to 60 
people that wouldn't have had a chance for a job in my 
district.
    Dr. Holtz-Eakin, do you see other options for employers 
other than this pay the penalty or change your work hours or 
meet the plan requirements if you offer something less than 
that? Are there other ways that employers are going to be able 
to meet the intent of the law and provide insurance to their 
employees?
    Mr. Holtz-Eakin. They have very limited options. When you 
run down the menu, you either pay penalties or you move the 
part-time people or you provide the insurance and meet the 
costs of hitting the essential benefits.
    Mr. Heck. What impact is there on the self-insured Taft-
Hartley type plans? Is it the same as it is in on somebody, an 
employer who is buying insurance from a broker insurance 
company versus those that are self-insured Taft-Hartley plans?
    Mr. Holtz-Eakin. They are not identical, but I am not 100 
percent sure of the difference. We can get back to you on that.
    Mr. Heck. Okay. If you could, please. And one thing I just 
want to say, there has been a lot of--I think everybody agrees 
we want people to have increased access to quality health care 
at a lower cost and I agree with Mr. Pollack.
    We want to reward quality not quantity and I think some of 
the discussions that we have been having in other committees on 
reforming the sustainable growth rate formula is looking at 
doing just those kinds of things for Medicare, but increasing 
access to health insurance doesn't necessarily mean you are 
increasing access to health care.
    I am an emergency medicine doctor by trade and I can tell 
you that a large portion of people we see in the emergency 
department are the uninsured. Certainly, because it is the only 
place they can go. The only place where you can take care of 
somebody any time of day regardless of chief complaint, 
regardless of ability to pay.
    So now we are going to have roughly 30 million more people 
if the numbers hold out through the fact that they will have 
insurance and they are going to call for an appointment and 
they are going to be told, well, we can see you in about 3 
months because we don't have the infrastructure to take care of 
those people.
    So what are they going to do? They are still going to come 
to the emergency department because they are not going to wait 
for 3 months. And as we all know, the emergency department is 
the most expensive place in our health care industry to try to 
receive care.
    So I think the jury is still out and like you say, there is 
a lot of speculation. You know, it was mentioned, New York is 
going to see a 50 percent decrease in premiums, but New York 
has one of the most restrictive state regulatory environments 
for health insurance to begin with, so they probably have no 
place to go but down.
    My state, Nevada, it is estimated that we are going to see 
a 30 percent increase in premiums in the individual and small 
group markets.
    So still a lot of unanswered questions, but I appreciate 
you being here and presenting your viewpoints.
    And I yield back the balance of my time.
    Chairman Roe. Thank you, Dr. Heck.
    Ms. Bonamici?
    Ms. Bonamici. Thank you very much, Mr. Chairman.
    And thank you to all of the witnesses for being here.
    We just heard from a colleague on the other side of the 
aisle that we all agree that we need to make health care more 
accessible and more affordable, and I think you would all agree 
with that premise and I certainly believe that is what the 
Affordable Care Act is intended to do.
    I am a little concerned about the discussion about 
confusion out there and Mr. Pollack raised that issue. I want 
to point out that just yesterday I read an article in Forbes, 
with all due respect to my colleague from Indiana, this is 
about Indiana and how they announced that premiums were going 
to significantly increase through the exchange.
    But what they did instead of doing what other states were 
doing and basing their projections on the silver and bronze 
plans which most people will buy, they used the gold and 
silver--excuse me, the gold and platinum as well and here is 
what the article said that resulted in.
    ``That is like saying the average cost of a car in an 
Indiana dealership is $100,000 because it sells $20,000 Fords, 
$60,000 BMWs, and $220,000 Lamborghinis. Technically true, but 
highly misleading.''
    So I am a little concerned about how a lot of this 
information is out there in the public in a way that is causing 
people to panic and to not understand what is really going on, 
and the article goes on to say that it becomes difficult to 
understand how anyone could avoid acknowledging that the 
disingenuous behavior of the anti-Obamacare forces truly knows 
no bounds.
    And, you know, with all due respect, I understand that we 
have some very qualified witnesses here and I appreciate that, 
but what we need to be doing is being out there talking with 
people about what really is going to happen when for example 
the marketplace insurance exchanges go up.
    My home state of Oregon for example, the Affordable Care 
Act already has had a positive impact. In my district alone, 
one-fifth of the state of Oregon, 106,000 seniors are now 
eligible for free preventive care, 90,000 women can access 
preventive care without a co-pay, up to 45,000 children can no 
longer be denied coverage based on preexisting condition, for 
the low income and sick, the Affordable Care Act can be life-
changing, even lifesaving.
    Oregon is certainly leading the way with an early insurance 
exchange, which I am proud to say was established in a 
bipartisan way. I was in the state legislature when--bipartisan 
legislature--did enabling legislation for that exchange.
    The marketplace called Cover Oregon has done a great job, 
is on track to be up and running on time.
    Certainly, Ms. Turner, you talked about market-based 
solutions. That is what the insurance exchanges are. It is 
working the way it is supposed to. When our preliminary costs 
were made public, two insurers actually contacted the insurance 
division and asked if they could lower their rates, exactly 
what the marketplace is intending to do.
    Mr. Pollack, you did a great job of explaining the benefits 
of the Affordable Care Act. So can you talk a little bit about 
the increased accountability for insurers and how that is 
affecting the affordability of health care?
    I know that in the first district already more than 230,000 
individuals have saved money due to the provisions that prevent 
insurance companies from spending more than 20 percent of their 
premiums on profits and administrative overhead and have 
received millions of dollars in rebates already.
    So can you talk a little bit about that increased 
affordability and how that is affecting health care?
    Mr. Pollack. Sure. As one of the key accountability 
measures is how much of the premium dollar is now spent 
actually on health care as opposed to other purposes; 
marketing, advertising, agents' fees, administration, profits, 
and that makes the product a whole lot more cost-effective when 
you say at least $0.80 out of the dollar and, in some 
instances, $0.85 out of the dollar must be spent on actually 
providing care.
    Certainly, there is greater accountability for insurers in 
terms of they cannot deny coverage to people due to preexising 
conditions. They can't charge a discriminatory premium based on 
health status. They can't charge higher premiums based on 
gender. I think all those things are very wholesome matters.
    I would say one thing about your earliest comments and that 
is there is confusion among the American public about what is 
in the Affordable Care--no question that is true, and that is 
because we have had a very contentious political dialogue so 
far in the country, and I think we are going to see a 
transformation of that in the months and weeks ahead.
    And that is we are going to have a personal conversation, 
not a political conversation, and by a personal conversation I 
mean: how does it affect an individual, how does it affect his 
or her family, how does it affect neighbors and friends?
    And I think the more we have that conversation, and that is 
going to increase in the weeks ahead, I think people will have 
a far greater appreciation of how the Affordable Care Act will 
benefit them.
    Ms. Bonamici. Thank you.
    I see my time has expired. I yield back. Thank you, Mr. 
Chairman.
    Chairman Roe. I thank you for yielding.
    Mr. Rokita?
    Mr. Rokita. I think both chairmen.
    Ms. Turner, do you think insurance exchanges are free 
market?
    Ms. Turner. The exchanges are when you have Washington 
setting the rules for what the health insurance has to be, 60 
percent, 70 percent, 80 percent, 90 percent actuarial value 
with so many rules and regulations with consumers having a 
choice of only four plans that are basically cookie-cutter, no, 
I don't believe so.
    I believe that consumers on their own would find and the 
market would provide many more choices.
    Mr. Rokita. Right. In fact, do you think we have those 
choices now or not?
    Ms. Turner. No, we don't have those choices now, and I 
think that is really was the challenge that we should have been 
addressing is what can we do--
    Mr. Rokita. Because we really don't have a free fluid 
market.
    Ms. Turner. That is right.
    Mr. Rokita. And why not?
    Ms. Turner. We don't have a free fluid market because 
consumers aren't able to be consumers. The tax treatment of 
health insurance so incentivizes in the past.
    People get their health insurance through their workplace 
where they are told this is the choice that we can offer. They 
may or may not like it, but that is all they get.
    If we had a free open market where people were able to shop 
for their own insurance, their health care is a different 
thing, shop for their own insurance, then they would be able to 
force the market to provide much more affordable and diverse 
options.
    Mr. Rokita. Thank you.
    And following along on that same line of questioning to Dr. 
Holtz-Eakin, how much of the insurance market or even the 
health care market is run by the government through programs or 
regulations?
    Mr. Holtz-Eakin. All of it at some level. This is a highly 
regulated--
    Mr. Rokita. All of it?
    Mr. Holtz-Eakin. Yes. We have standards for providers, 
licensing. We have standards in the state insurance markets. We 
have enormous public payer programs in Medicare and Medicare 
and now the Affordable Care Act. It is hard to describe any of 
this as market driven.
    Mr. Rokita. Okay. So Mr. Pollack testifies that he would 
rather keep going in this direction. What would that lead to?
    Mr. Holtz-Eakin. I am deeply concerned about the future 
under the Affordable Care Act.
    Mr. Rokita. How would the members of Mr. Pollack's 
organization fare into the future if we keep going down this 
road?
    Mr. Holtz-Eakin. Number one, in the end, it is the quality 
of the economic growth that determines the incomes you have to 
spend on everything including health care, and this is bad 
economic policy from the word go.
    Number two, it left unreformed to a great extent programs, 
Medicare and Medicaid, that are intended to serve our seniors 
and poor but do so in quite a substandard fashion. We have not 
gotten rid of fee-for-service medicine. We haven't solved the 
problems in Medicaid. Those problems are going to remain and 
indeed expand if we go down this path.
    We have set up on the care side an enormous incentive for 
consolidation and monopoly power. That is not going to lower 
anyone's costs. It is going to raise costs.
    And, you know, on the insurance side, we have essentially 
turned this into a large, nationally regulated utility, and I 
don't think we are going to get good performance out of it.
    Mr. Rokita. Thank you very much.
    Mr. Richardson, switching it up a little bit, how do you 
and your company handle employees who have pre-existing 
conditions?
    Mr. Richardson. They are included on the insurance so we 
take care of that, you know, that way.
    Mr. Rokita. Do you have any idea how much your increase in 
cost is? Have you ever done that kind of analysis?
    Mr. Richardson. I don't have a specific number on that. We 
can put the study to it and get back with you a specific 
number.
    Mr. Rokita. The point is, the private sector is handling 
pre-existing conditions? Yes or no? What is your opinion?
    Mr. Richardson. Yes, and I think what we started to do 
another way, and I welcome Congressman Andrews' comment on 
thoughts and ideas, is one of the things that helped us a lot 
at White Castle is a real focus on wellness.
    So we started paying for preventative visits covering 100 
percent of the co-pay and we have seen that have a real 
positive impact, just in terms of general, common-sense 
solutions that help our people.
    Mr. Rokita. And why did you start doing that? What was your 
motivation?
    Mr. Richardson. Costs were increasing and we were looking 
for ways to--first and foremost, we care about our 10,000 
people, but we also recognized that it could provide us the 
chance to have lower health care costs.
    Mr. Rokita. And do you find that they--you probably have a 
wide disparity of income salaries and hourly wages across your 
organization. What differences do you find across those wages 
and salaries and incomes in terms of how people react or care 
for themselves or their families in terms of their health?
    Mr. Richardson. Well, first and foremost, our founder 
believed in providing freedom from anxiety and recognizing the 
dignity of each team member. So if we are lucky enough and we 
do our job, we are able to have someone stick around and be 
part of our team for the long haul.
    And what we know is more of what is in common that if we 
provide good education and good access and awareness of what 
the benefit is, it is going to be there for people when they 
need it the most.
    So I don't know if I could call out specific disparities, 
but I know that we are in a lot of urban areas, we are in rural 
areas, suburban areas, but we try to focus on what is in common 
which is that freedom from anxiety that our plan provides.
    Mr. Rokita. Thank you.
    I see my time has expired.
    Chairman Roe. Thank the gentleman for yielding.
    Mr. Polis?
    Mr. Polis. I thank the Chair.
    First, I wanted to engage Ms. Turner. In your remarks, you 
mentioned, quote--``No wonder businesses are confused.'' It 
would seem to me that it is confusing for businesses that after 
the President administratively delayed the employer mandate, 
Congress is taking up legislation that authorizes the President 
to do what he already did.
    To your knowledge, is anyone suing the President to stop 
him from this administrative delay?
    Ms. Turner. I am not aware of that, Congressman.
    Mr. Polis. Nor am I, so it would seem like the only 
confusion that is being caused is by this Congress. I think the 
actions of the President were clear, to delay the employer 
mandate to 2015 from 2014. If there is any confusion, it is 
because Congress is running a bill--ran a bill, and now has a 
hearing to do what the President already did.
    I also was wondering if the gentlelady is aware of some 
recent polling information that 42 percent of the American 
public are unaware that Obamacare is in force.
    Has Ms. Turner seen that, perhaps when it came out a few 
weeks ago?
    Ms. Turner. I have, yes.
    Mr. Polis. And, do you have any idea why nearly half the 
American public might be so misinformed as to believe that 
Obamacare is not in fact the law of the land? Any hypotheses or 
suggestions?
    Ms. Turner. This has been such a huge political battle 
because so many of us feel that this really is an affront to 
freedom and it is a bigger battle than just health care--
    Mr. Polis. Well, reclaiming my time, the question was not 
do you support or oppose the Affordable Care Act or Obamacare. 
The question was do you think it is in force because you know, 
I know Ms. Turner was concerned about the ``confusion'' that 
she cited in her comments.
    It would seem to me that it is reasonable to believe that 
42 percent of the American public believe Obamacare is not in 
force. That could very well be because in fact this body, this 
House, continues to vote time after time after time after time 
to repeal Obamacare.
    And of course for those who aren't part of that, as engaged 
in the process as we are here, they might not realize that 
those are simply symbolic votes. So if Ms. Turner is concerned 
about--Ms. Turner, if you are concerned about the 
``confusion,'' that businesses and individuals have about 
Obamacare, don't you feel that this Republican strategy of 
repeatedly repealing all our parts of Obamacare in the House 
actually contributes to that very confusion that you were 
concerned about?
    Ms. Turner. Well, but as the chairman was saying, seven, I 
think Mr. Walberg was saying, seven of those nearly 40 votes 
have actually resulted in legislation being signed into law to 
amend or repeal parts of this law. So it is not futile--
    Mr. Polis. Well, reclaiming my time, again, Obamacare has 
not been repealed. The Affordable Care Act has not been 
repealed.
    Ms. Turner. Provisions have.
    Mr. Polis. Do you agree with that statement or has 
Obamacare been repealed?
    Ms. Turner. Provisions of it have.
    Mr. Polis. So would you say as a whole Obamacare has been 
repealed?
    Ms. Turner. No. I said seven--
    Mr. Polis. Has Obamacare substantially been repealed?
    Ms. Turner. Not substantially.
    Mr. Polis. Okay.
    Ms. Turner. But key elements--
    Mr. Polis. Reclaiming my time, I want to go to Mr. 
Richardson.
    Our time is limited.
    I thank Ms. Turner.
    Are you supportive of the President's action in 
administratively delaying the employer mandate to 2015?
    Mr. Richardson. Congressman, if we were going to bring out 
a hot and tasty new sandwich but something wasn't right and we 
needed to look at what to do much better--
    Mr. Polis. Reclaiming my time. I am not talking--I don't 
want to know about sandwiches. I know that you serve them 
perhaps, but my question is are you personally supportive of 
the President administratively delaying the employer mandate to 
2015 instead of 2014?
    Mr. Richardson. White Castle is grateful that we have got 
the chance for maybe some common sense dialogue about how we 
can address other issues like 40 hours per week, a better 
definition of full time--
    Mr. Polis. Well, again, are you supportive--yes or no--of 
the President's actions to delay the employer mandate or do you 
only talk about--
    Mr. Richardson. We were relieved when we heard the news 
that the employer mandate was going to be delayed in hopes that 
it gives us the chance to address--
    Mr. Polis. Reclaiming my time. Reclaiming my time. You were 
relieved. And are you personally or is your company confused at 
all about whether the employer mandate is enforced in the year 
2014?
    Mr. Richardson. I think a lot of times people like to think 
of this as tic-tac-toe. This is a 64-box Rubik's cube and 
everything we do has--
    Mr. Polis. Reclaiming my time. The employer mandate is not 
in effect in 2014 due to administrative action as Ms. Turner 
also mentioned, as far as we know the President has not been 
sued to stop, that it is not enforced, there is no 64-box 
Rubik's cube. There is no employer mandate in 2014 thanks to 
the President's actions, which you are relieved he took--
    Mr. Richardson. We are relieved, but we know it is coming 
soon.
    Mr. Polis. Again, to be clear, are you confused about 
whether the employer mandate goes into effect in 2014 and if 
so, why?
    Mr. Richardson. Our confusion is more around how we are 
going to be able to comply with the laws. We continue to wait 
for guidance and regulations.
    You know, as a good corporate citizen, we are going to 
comply with the law, but what is confusing to us is trying to 
understand where do we go from here.
    Mr. Polis. But are you clear on the fact that the employer 
mandate does not impact your business in 2014 thanks to 
President Obama's administrative action?
    Mr. Richardson. We are thankful that appears to be the 
case.
    Chairman Roe. I thank the gentleman for yielding.
    Mr. Salmon?
    Mr. Salmon. Thank you.
    Mr. Richardson, the way I see it for employers they have 
four choices. You can add to or take away if you so desire.
    Number one would be maintain coverage and absorb the cost 
increases. Two, maintain coverage and pass on the costs to 
workers and consumers. Three, decrease employee work hours to 
avoid full-time requirements; or four, drop coverage altogether 
and pay a penalty.
    Do you see any other alternatives?
    Mr. Richardson. No, Congressman, I think the difficulty for 
us is in restaurants, we are focused on hospitality and that is 
a very people intense and big investment that we are making in 
our people and our profit per employee as an industry is a $750 
compared to a typical industry where that is about $10,000. So 
it hits us harder.
    Mr. Salmon. I met with folks from the American Restaurant 
Association. I don't know if you guys remember, but I talked to 
several of the convenience store CEOs--not convenient stores 
but fast food CEOs and they said that most of their employees 
truly believed with the passage of Obamacare that they were 
going to get free health care.
    They then said that when they learned that they were going 
to have to pay something on their premiums even as low as $100, 
most of them would opt to not take it. And then to add insult 
to injury, once they decide to not take it, they will be facing 
a tax. Do you see that as a slippery slope for some of your 
employees as well? Do a lot of them believe that President 
Obama was giving them free health care?
    Mr. Richardson. The bigger challenge for us will be with 
team members who have insurance now--we have offered it since 
1924--is waiting to see what we are able to provide, and our 
biggest concern is it won't be able to be as rich a benefit of 
what we are providing now and we won't have the opportunity to 
allow that to be available to as many people.
    Mr. Salmon. I am going to ask for your speculation. I am 
going to ask Ms. Turner as well. Do you believe that the 
President took this executive action to postpone the employer 
mandate because he wants to make sure that it is easier on 
employers or do you think he did it out of political concerns?
    Ms. Turner. It is very difficult to assess anybody else's 
motivations, but if they believe that this was going to change 
employers' behavior in hiring full-time workers for 1 year, I 
think that was really misguided.
    The fact that so few of the other agencies within the 
government understood or were even consulted; CMS, OMB, or 
treasury about this decision suggests that it was made in the 
White House.
    Mr. Salmon. Well, let me ask this question then. It has 
been over 3 years since the bill was passed and signed into 
law. Is it reasonable to assume that one more year will allow 
for the government, businesses, individuals, and insurers to 
understand the law much less comply with it?
    Ms. Turner. I think it is going to add to their confusion 
and I think that the confusion also is the reporting 
requirements have been delayed but some employers are very 
concerned whether or not that means that whether or not they 
are still required to actually comply with the mandate.
    Perhaps an employee would sue them saying they have been 
harmed even though they weren't making the reporting 
requirements they weren't providing the health insurance that 
was still on the books as they mandate it. So that is a very 
different situation.
    I don't think it is going to change their behavior. The 
June jobs report showed that the number of part-time employees 
that was hired were 360,000 that month and that 240 full-time 
jobs were lost. So employers are now making decisions about how 
to restructure the workforce. They are not going to change that 
after a year.
    Mr. Salmon. And I think the next question I was going to 
ask has already been answered. Isn't it reasonable to assume 
that one more year will ensure it will be a workable system? I 
think you are saying you don't believe it will.
    Do you believe it can, Mr. Richardson?
    Mr. Richardson. Yes.
    Mr. Salmon. Do you agree with her?
    Mr. Richardson. Yes.
    Mr. Salmon. That a year really doesn't do much to change 
this?
    Mr. Richardson. No. The train is coming around the bend. It 
gives us more opportunity for common sense dialogue about what 
we can do to really address the core issues that are going to 
raise employer costs and make it harder to create jobs and 
bring prosperity to people who are aching for it.
    Mr. Salmon. And I am about to run out of time, but I would 
like to say that even though one member of this panel says that 
Obamacare is going swimmingly and that it is actually 
increasing the number of full-time jobs in our economy, 
recently my community college district announced that they were 
going to take 1300 employees and change them from full-time 
status to part-time status because they can't envision having 
to come into compliance with the costs and the trouble 
associated with Obamacare.
    And lastly, I might point out that in the recent letter 
from the Teamsters where they said that the 40-hour work week 
as we know it will be dead and gone--there are a lot of folks 
out there--I don't know that you would call it the sky is 
falling, but they are recognizing this thing for what it is.
    It is a job killer and a year doesn't buy us anything other 
than postponing the killing of those jobs--
    Chairman Roe. The gentleman's time is expired.
    Mr. Salmon. It is killing me with a thousand cuts.
    Chairman Roe. Thank the gentleman for yielding.
    Ranking Member Miller?
    Mr. Miller. Thank you very much.
    I want to thank the panel.
    One of the hallmarks for the critics of the 
administration--I know this has always been--that there is a 
great deal of uncertainty and we passed through sort of a great 
period of uncertainty 2 years ago.
    It looks to me like much of the uncertainty now much of 
which is real in the economy is also certainly around this bill 
is manufactured for the sake of uncertainty so that people 
question it.
    I think we see a difference in Ms. Bonamici's state and in 
my state where people rolled up their sleeves and said how do 
we make this work across our state, across our economy, and 
there seems to be much less uncertainty when I talked to my 
employment community from the largest like Chevron to small 
businesses across the cities and towns that I represent.
    And interestingly enough, most of them say that if they 
have the business, this is of minor concern, but their concern 
is about economic growth and the economy and it is interesting 
also that you sort of see more and more economists from the 
right and from the left, however you want to characterize 
economists, suggesting that the big enemy at this particular 
point in terms of certainty is a question of the continued 
sequestration that is dampening growth across the country and 
then the question of the debt limit; will the Congress of the 
United States, the United States as a country meet its 
obligations and honor its debt.
    But when I talked to small business people, as they say, I 
have got the book of business, this health care law is neither 
here nor there. If I don't have a book of business, I have got 
problems and I have got health care problems.
    Today, one of your--I don't know, the rival, but in your 
business--Sonic was asked this very pointed question; are you 
changing your work hours, are you changing your workforce 
because of health care? And he said we are growing.
    We have a great rollout of a new product. No. We are adding 
stores, adding people because we are growing. Then they 
compared them to McDonald's apparently which has had a little 
bit of dip here or something.
    And that is what I hear on the street. Now some of it is 
anecdotal, some of this they don't know, but it really isn't 
this. It is about whether or not this economy can develop a 
wage base so that people have money to spend on Main Street.
    That is what I hear from small businesses. And so I think 
politically in this town we are going to agitate this health 
care bill until we have got people absolutely confused. And 
yes, we can chew up that year, Mr. Richardson, you keep saying 
we can figure out how to do this but I don't know that there is 
goodwill here because this is all--this hearing is 
manufactured.
    We already know what the President did. We could have a 
hearing on how do we handle this; what changes are necessary. 
But that is not happening. I think as Mr. Pollack has pointed 
out, we have been going through this now for months and months 
and months and I just go back to the real question--the real 
question is whether or not, you know, we had people like FedEx 
tell us the greatest drop in business in the history of the 
company was when Congress was playing with the debt limit in 
July; worldwide, the business just stopped.
    I had small business people who had international book of 
business tell me exactly the same thing. Orders stopped. 
Because for the first time in history it was suggested that 
maybe we weren't going to honor our debt. This would really 
teach the federal government a lesson.
    No, it would teach the business community a lesson. And so 
I just--Mr. Eakin's and Mr. Pollack, I would just like to know 
where you sort of see this question of growth being determined 
here.
    Obviously, if you have a declining book of business or you 
have a stagnant book of business, this gets magnified rather 
dramatically as opposed to if you have a book that seems to be 
growing. And everybody says, well, we are growing. We are 
growing, you know, anemically, but we are growing. The third 
and fourth quarter will be better somehow.
    Mr. Pollack. You know, Mr. Miller, many of us I think often 
say that really growth in the economy comes from small 
businesses and small businesses actually come out very well 
with respect to the Affordable Care Act.
    Take the smallest businesses, those with fewer than 25 
workers, they are now eligible for tax credit, premium 
subsidies, not everyone to be sure, but those tax credit 
premium subsidies now go up to 35 percent of the cost of 
providing health care for their workers. Come January 1, it 
will be 50 percent.
    So with respect to growth of the economy and more jobs, I 
think you have to look at small businesses that are not 
affected by the employer mandate and who are now eligible for 
tax credit premium subsidies.
    Mr. Miller. Mr. Holtz-Eakin, I don't know how much time you 
have before that turns red, but--
    Mr. Holtz-Eakin. I am sorry?
    Mr. Miller. If you wanted to comment on the question.
    Mr. Holtz-Eakin. No, I think that small business tax 
credits are a red herring, it is temporary at best. It doesn't 
change the fundamental characteristics of the law--
    Mr. Miller. I am asking about the question of growth--
    Mr. Holtz-Eakin. I think growth is the top priority for 
this country right now and if you look at the Affordable Care 
Act from the perspective of growth policy, it is not good 
policy.
    You don't levy $1 trillion in taxes, impose a big 
regulatory burden, and create a large new entitlement program 
when we have many that are already broken and bleeding red ink. 
That is not a path for growth.
    Chairman Roe. Thank the gentleman for yielding.
    Mr. Messer?
    Mr. Messer. Thank you, Mr. Chairman. I appreciate the 
opportunity to speak about this important topic today.
    I certainly thank the panelists as well.
    I have to tell you, I am from Indiana's Sixth Congressional 
District. It is a rural district, 19 counties in east, central, 
and southeastern Indiana. It certainly has its high number of 
White Castles and we have had public forums in my district in 
both Dearborn County and Hancock County and the number one 
concern raised by small business owners in our district is they 
look at the challenges they face in the next several years is 
the implementation of this act. They see it as the highest cost 
in front of them. They see it as the greatest amount of 
uncertainty, and they are doing their best to respond.
    In my opinion, and I want to direct this question to Mr. 
Holtz-Eakin, it is my opinion that they, the congressional 
budget office dramatically underestimates the amount of 
employers that will be forced to drop or reduce employees to 
part-time status due to Obamacare.
    As a former CBO director, what do you think will be the 
impact on the federal budget if more employers drop coverage or 
reduce hours of than the CBO has originally estimated?
    Mr. Holtz-Eakin. We certainly know that if employers drop 
coverage, individuals go to the exchanges. These are very rich 
subsidies in the exchanges. That is a big burden on the 
taxpayer.
    I have done the arithmetic as I mentioned. This is in the 
financial interests of both the firm's and the employees for 
employees getting compensation after about 300 percent of the 
poverty line.
    The CBO relies heavily on the notion that high wage workers 
benefit from a different federal subsidy which is the tax 
exclusion and that they will want to hold onto the federal 
subsidy and that nondiscrimination rules will at best require 
those firms to offer every employee the insurance.
    I am less sanguine about that thin firewall holding and I 
am afraid the taxpayer is about to pick up a big bill.
    Mr. Messer. Yes. And I have to tell you, listening to the 
folks in my district, from the school systems in my district, 
to the small business employers in my district, I am convinced 
whether the consequences are intended or not that placing the 
Obamacare requirement on employees that have 30 hours or more 
has become the biggest attack on the 40-hour work week in 
decades.
    Employers are responding. I know that anecdotally. Mr. 
Richardson, if you could expand just a little bit about--has 
that been a consideration within your business?
    Mr. Richardson. It has been a huge consideration for us, 
and I think what we are seeing is I know a lot of times people 
talk about bifurcation of income. We are going to see 
bifurcation of scheduling. As we look ahead to implementation, 
we are looking at a $9 million increase in our health care 
costs if we don't make adjustments.
    So we have consciously said and we want to be transparent 
with our team members so they can know what to expect. If you 
are full-time, you are going to stay full-time, but if you are 
part-time, we are going to be scheduling part-time at 25 hours 
a week or less. That is not what we would do under normal 
circumstances. That is not what we have done for 92 years.
    Mr. Messer. It is not good for your business, and it is not 
good for your employees either, right? Both suffered.
    Ms. Turner, if you could expand just a little bit--you 
alluded in earlier questioning to the fact that you are seeing, 
in the economy, the rise of part-time jobs by I believe in 
response to the Affordable Care Act. If you could comment on 
that.
    Ms. Turner. Yes, Mr. Chair--Congressman, because there is a 
look back period. So those businesses have to start 
restructuring their businesses now when they believe the 
employer mandate was going into effect in 2014.
    And I think that the thing that we have to pay attention to 
is how this is affecting the most vulnerable people in society; 
people who are trying to get their foot on the ladder of 
economic opportunity, people who are barely getting by on a 40-
hour week, often minimum wage.
    They are having their hours cut to 30, 25, some of them 
losing their jobs entirely. People, we find, learn today a new 
survey that a third of doctors are seriously considering 
leaving the practice of medicine. Even those who have health 
insurance are going to have a hard time getting to see a doctor 
to see them.
    So there are a so many distorting factors throughout the 
economy and now we have a delay of the employer mandate but not 
the individual mandate.
    So even though the businesses, big businesses are not 
required to provide health insurance, individuals still have to 
provide that. So I think that when we look at who we are trying 
to help, this is hurting them the most. We still have 30 
million uninsured even if everything goes right.
    Mr. Messer. Yes. Ms. Turner said it better than I would 
have said it myself, so I yield back the balance of my time.
    Thank you.
    Chairman Roe. Thank the gentleman for yielding.
    I think Mr. Hudson is next.
    Mr. Hudson. Thank you, Mr. Chairman.
    I think the witnesses for being here today. I know you have 
busy schedules.
    You know, I talked to business people back home. I go home 
every weekend, every chance I get and I travel to my district. 
I talk to business people who are struggling with, you know, 
projecting costs for their business.
    Mr. Richardson, you talked about in your testimony some of 
the effects of the auto enrollment provision. As you may be 
aware, I have introduced a bill to repeal this requirement, 
H.R. 1254. Could you just outline some of the problems that 
your company would face with auto enrollment and can you 
quantify the impact this provision will have on your business?
    Mr. Richardson. We support repeal of the auto enrollment 
because it hurts our team members and the way we look at it is 
43 percent of White Castle team members are under the age of 
26, so with auto enrollment, on that 91st day, they are 
automatically enrolled in the plan and their check get smaller 
and it just creates an unnecessary burden. It is redundant, and 
to us it is one of those areas where this new window of time 
before implementation hopefully gives us a chance to address 
that so employers can do what they do best, create more jobs.
    Mr. Hudson. Absolutely. Could you tell us sort of how you 
are projecting what your costs are going to be with auto 
enrollment and what that impact specifically will be?
    Mr. Richardson. A lot of the costs is in how to design the 
right ISIT systems to be able to monitor and track, but beyond 
that, we know that there is going to be this back-and-forth 
type of thing happening.
    So in terms of quantifying, I don't have an exact number 
for you other than we can look at the people costs, the labor 
costs, and the time costs and our number one focus is having 
engaged team members.
    If you are in the hospitality business, you want people to 
be happy being able to focus on guests. We don't think we will 
have as good an opportunity to do that if were trying to 
explain to them, well, let us work this out and, you know, 
follow your wishes.
    So it really gets between us and our team members and 
builds a wall that we think need not be there.
    Mr. Hudson. I appreciate that. I hear that from a lot of 
employers. The first time an employee is going to see money 
missing from their check, they are going to then come to the 
employer and say why did you do this to me. So I understand 
that. I appreciate it.
    What other problems do you see with the implementation of 
this requirement affecting companies?
    Mr. Richardson. I think some of the bigger challenges are 
going to be, you know, we are a medium-size restaurant chain, 
but if you start to look at the range and different sizes of 
restaurants and how that is going to impact them and once you 
get to that threshold where auto enrollment is forced upon you, 
some chains might have a global footprint and it may come 
easier for them, but it really disproportionately, like many 
parts of the law, falls harder on those of us who employ more 
people as ambassadors.
    So it is really attacks the fee on our ability to keep our 
people happy and to deliver our service model.
    Mr. Hudson. I appreciate that.
    And, Mr. Chairman, I yield back.
    Chairman Roe. Thank the gentleman for yielding.
    Dr. Price?
    Mr. Price. Thank you, Mr. Chairman, and I apologize for 
coming late but I have reviewed the testimony.
    I appreciate everybody's comments.
    I want to focus on a couple of things. One, I heard that 
some friends on the other side of the aisle said there weren't 
any alternatives and I just want to point out that there are 
significant alternatives.
    H.R. 2300 is one that is now in its third Congress and it 
incorporates what we call patient-centered health care, which 
is patients and families and doctors making medical decisions, 
not Washington, D.C. or insurance companies. So we do have 
wonderful alternatives, and I would urge my colleagues to read 
them.
    I want to ask a couple specific question. Dr. Holtz-Eakin, 
the regulatory burden that exists in the employer mandate is 
significant. Now, for big businesses, it is significant, but 
they have got stacks of folks that do this stuff all the time.
    And so although it is a burden and I think it cuts into 
jobs that they can create, but I want to focus in on the small 
businesses. If you are the mom and pop grocery store down the 
corner and you have got four or five employees or you are in 
the franchise business and you have got multiple restaurants 
and you have got employees that will come under this burden, 
what happens to small businesses? Where do they have to get 
that money? Does it affect their business? Does it affect jobs?
    Mr. Holtz-Eakin. All the testimony from every small 
businessman who has talked about complying with the regulatory 
burden says that it is a big burden.
    This burden comes in the form of time and that is time away 
from focus on the business, which is the core mission of 
management, or its money. You have to hire outside expertise. 
It is often quite expensive. That money cannot be plowed back 
into the business. It can't be used to hire new workers or 
expand payrolls.
    And most small businesses are very cash flow dependent. So 
this is going to hit them at a time when they are struggling 
for cash flow because is a weak economy.
    We have seen it in the official reports as well. The CBO 
reported that these were unfunded mandates of significant size 
and the employer community. We have seen it in the 
administration's own rulemaking where they have to identify 
economically significant rules and--is littered with them.
    So I don't think that there is any question about the cost 
side of this equation.
    Mr. Price. And the cost side to businesses, we sometimes 
get hung up on that and don't finish that paragraph. What that 
results in, does it not, is actually fewer jobs being available 
in those small businesses?
    Mr. Holtz-Eakin. Yes. I mean, prior to your arrival, you 
can think of the Affordable Act from many dimensions, but if 
you look at it from the dimension of economic growth policy, it 
is bad economic growth policy.
    Mr. Price. Hurts businesses, hurts jobs--
    Mr. Holtz-Eakin. Yes.
    Mr. Price.--hurts the economy.
    Ms. Turner, I appreciate all of the work that you do in 
health care. You have been a real champion for what I have 
mentioned as patient-centered health care.
    I am curious as to the comments that you made about the 
employer mandate and what we are mandating and are we not with 
this in the individual mandate just ceding the definition of 
health care--health coverage to Washington?
    Ms. Turner. Absolutely.
    Mr. Price. Why is that a problem?
    Ms. Turner. Your legislation, which I think is really such 
an important model for people to look for when people say the 
conservatives don't have free market solutions, we absolutely 
do. And I thank you for your tremendous work on H.R. 2300 over 
several congresses.
    What we see in the marketplace is a growing movement toward 
policies that make sense for businesses and employees.
    The number of health savings accounts has grown to 15 
million in less than 10 years. Businesses are looking to find 
health insurance that is affordable that gives employees 
protection if they have major health costs as well as providing 
an option so that they can have preventive care to make sure 
that the policy also covers routine doctors' visits for 
preventative measures.
    That is the direction people were going because that is 
more affordable. But the health law says no, Washington knows 
best.
    We are going to tell you what you have to and it is going 
to go through the roof and we are going to have even more 
economic and health policy dislocations.
    Mr. Price. Violating all of those principles, access and 
cost-effectiveness.
    Dr. Holtz-Eakin, I want to visit very quickly the issue 
that kind of flew under the radar screen with this announcement 
2 weeks ago on the employer mandate delay and that is that the 
individual attestation saying that they are eligible--
individuals are eligible for a subsidy. What is that going to 
do to the cost? Do you have any estimates on that you have 
looked at?
    Mr. Holtz-Eakin. I don't have a numerical estimate, but I 
know which direction it goes. More people will be eligible for 
bigger subsidies than would be otherwise and what is already 
likely to be an expensive program.
    Mr. Price. Why is that?
    Mr. Holtz-Eakin. You don't have the ability to do the 
verification, and I would be surprised if people attest to be 
poorer and less qualified than they really are.
    Mr. Price. And if they attest for something that actually 
isn't true in retroactively, retrospectively, does the IRS not 
have the authority to come in and then tax them for what they 
claimed?
    Mr. Holtz-Eakin. There are limitations on reclaiming excess 
payments already in law, and I would say that the 
administration has already announced that it won't enforce the 
individual mandates in states that don't do the Medicaid 
expansion. It has deferred enforcement of the employer mandate. 
We will see what happens with enforcement of recapture 
provisions.
    Mr. Price. Thank you, Mr. Chairman.
    Thank you.
    Chairman Roe. I thank the gentleman for yielding.
    I will now yield myself 5 minutes.
    To start out with, I agree that one of the things that we 
should do and it is a laudable is to expand coverage to people 
to as many people in our country as we can, and we spent twice 
per capita what any other country does.
    There is so much waste and we could not have made a health 
care bill more complicated than this with 22,000 pages, and all 
the money that goes into the infrastructure of this bill 
doesn't go to patient care. It doesn't go to actually me as a 
doctor, actually seeing a patient and performing a procedure or 
evaluating their problem.
    Let me just explain to you what happened in Tennessee and 
this is absolutely going to happen here. When Tennessee we 
started a health care reform in 1993 called TENNCare.
    The plan we offered as Dr. Holtz-Eakin said, these 
subsidies, and I will talk about that in a second, was richer 
than I could afford to provide myself and provide my employees.
    So what happened? Fifty percent of the people who got 
health insurance through TENNCare had private health insurance 
and dropped it. What has happened on the under 26? Sixty 
percent of those young people, they just basically switched to 
their parents plan and when they hit 27, they are going to have 
a plan that is two or three times more expensive than it would 
have otherwise been, and that is a fact.
    The original sin didn't occur in Genesis. The original sin 
occurred when we had a different tax treatment for individuals 
and companies as far as health insurance was concerned, so that 
it has created an imbalance, and this imbalance in cost and 
what it costs as an individual and what it costs with the tax 
subsidy you get when you work for a company.
    I held a hearing in Concorde, North Carolina where--Mr. 
Hudson's district--just about 2 months ago. We went through 
business after business. A community college was going to cut 
the number of hours that a community college could teach; a 
faculty member, about half, 40 percent or so of their faculty 
were adjunct.
    I talked to my own community colleges in my district. 
Exactly the same thing. I have talked to supermarkets. I have 
talked to restaurant chains.
    Mr. Richardson, you brought up something I think that was 
very important. I have never heard of because it wasn't a 
business I was used to, but how much money you made per 
employee. And I think you talked about $750, and I talked to 
other companies where they make $1200 per employee in that 
particular business.
    If you have a cost that goes above that, you have nothing; 
you are either going to have to raise your prices high enough 
that people can't afford it--and let me just read in this 
industry--this is from Sonny's Barbecue, which is very good in 
North Carolina, I might add.
    Research shows that since the recession, 70 percent of 
people have changed their eating habits out by reducing or even 
eliminating dining out according to the National Restaurant 
Association. Increasing menu prices should be the last resort. 
That is the last thing you can do because people just quit 
coming, and if that happens, you lose jobs.
    Other things that frustrate me with this bill is that in 
the self-insured market, we haven't even talked about that, how 
that is an effect on jobs. Mr. Horn, who is a textile 
manufacturer in North Carolina provided 80 percent. He provided 
20 percent in his employees, he covered everything 
preventative, and put a wellness program in, and what did he 
get for this?
    He got a $63 per employee fee which costs him tens of 
thousands of dollars. My local community, my local city that I 
was mayor of is going to get $177,000 bill and probably will 
get an exchange fee on top of that to indemnify insurance 
companies.
    So this thing was made terribly complex, and I have no 
earthly idea why this was ever politicized. Why health care was 
a Democrat or Republican issue. We should have worked on it 
together instead of in a partisan way to help solve these 
problems.
    I came here to do that. I specifically got elected to this 
Congress to help do that and was shut out of the debate. It was 
very frustrating for me in my job. And I want to talk to you 
all a little bit about--Mr. Pollack, I want to ask you one 
question.
    Do you think premium support is a good idea for seniors in 
Medicare?
    Do you think premium support is a good idea in the Medicare 
plan for seniors?
    Would it be a good idea for that plan?
    Mr. Pollack. The Medicare program works very well today--
    Chairman Roe. No, I am just asking you--switching to that 
plan--
    Mr. Pollack.--and so I would not want to play with a 
formula that is working very well.
    Chairman Roe.--so it is not working--
    Mr. Pollack. One of the things that--
    Chairman Roe. I am a senior. Let me just go ahead and 
reclaim my time.
    So it is a bad idea when I turn 65, but it is a good idea 
if you are under 65 if you get one of the--you wholeheartedly 
support that for people now who are low income, correct? In the 
Affordable Care Act? But all of a sudden, I turn 65 and it is a 
bad idea.
    Mr. Pollack. I didn't say it was a bad idea.
    Chairman Roe. You just didn't support it.
    Mr. Pollack. I did not say it was a bad idea. I did say 
that the Medicare program is functioning very well. My 
colleague, Mr. Holtz-Eakin was lamenting--
    Chairman Roe. My time is expired. I am sorry, but I am 
going to hold myself to my 5 minutes.
    Mr. Pollack. All right.
    Chairman Roe. I appreciate very much the witnesses taking 
their time today and you really have been a terrific panel.
    I appreciate all of the folks that showed up.
    And Mr. Andrews is not here, so I will ask Mr. Courtney if 
he has any closing statements he would like to make.
    Mr. Courtney. Thank you, Mr. Chairman. Mr. Andrews would be 
very disappointed in me if I didn't speak up and defend our 5 
minutes here.
    Thank you again for your courteous conduct of the hearing 
and the witnesses for being here today.
    There are a couple bits of housekeeping I would like to 
point out. Dr. Price is absolutely correct. He has introduced 
H.R. 2300. It has been referred to this committee and no action 
has been taken.
    I wish we had spent the time this morning having a hearing 
on your bill rather than a bill that has already been voted on 
in the House last week. And again, the point that a number of 
people were making here is that again, we have had repeated 
votes in the House rushed to the Floor without committee 
process, normal committee process, repealing, abolishing, 
modifying, whatever, and H.R. 2300 which again, I respect the 
gentleman for making a good faith offer to try and reform the 
system, but how come we don't have that hearing? Instead having 
a hearing on a bill that has already gone through the process.
    Again, we did not hear one shred of evidence this morning 
that the IRS's actions taken under well-established law, U.S. 
Code 7805 to delay implementation of a program which they have 
done on a repeated basis, again, fully documented by the 
Congressional Research Service was somehow improper or 
inappropriate.
    I mean, the fact is they used again authority which they 
have done a number of times. There have been no lawsuits. There 
have been no gotchas in any of those instances, and I would 
challenge any of the witnesses on a later date to present 
evidence in terms of the IRS decisions in the past that have 
resulted in that outcome.
    The fact is that this issue is off the decks for a full 
year. We can focus on what really matters, which is getting 
these exchanges up and running. In my state, we have four 
insurers that have filed in the individual market, four 
insurers that have filed in the small business market; they are 
going through the rate review process.
    And again, all indications are they are going to come in 
well below what the Congressional Budget Office projected back 
in 2010.
    And again, I come from being a small employer. I understand 
the impact it has and this is, in my opinion, going to be a 
good day for small employers when they have a structured, 
intelligible marketplace with a benefit plan that they can 
compare and shop around as opposed to the Wild West, which 
exists in the small group market today.
    Again, there are a couple of--you know, we have heard so 
many facts and figures about full-time and part-time. Again, 
from the Bureau of Labor Statistics, I would just ask, Mr. 
Chairman, to enter into the record a chart which shows that 
from June of 2012, a year ago, to June--excuse me--yes, June of 
2013, the U.S. economy has added 1,392,000 full-time jobs.
    In exactly the same period of time, according to the 
Bureau, the U.S. economy has added 195,000 part-time jobs. So 
the notion that somehow there are these incentives that we have 
heard ad nauseum about here today is in fact, you know, 
rebalancing away from full-time jobs.
    The numbers don't lie. That is from the Bureau of Labor 
Statistics, and again, I would ask that it be made part of the 
record.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Roe. Without objection.
    Mr. Courtney. And lastly, again, Towers Watson which is a 
highly respected health care management firm, again, surveyed 
people back in June, showed 98 percent--they have not and are 
not considering asking current full-time employees to change to 
part-time status.
    This is before the President's decision; 95 percent have 
not and are not considering making greater use of contract 
workers; 89 percent have not or are not considering 
discontinuing employer-sponsored health coverage for some or 
all active full-time employees.
    So, you know, look at, folks, this bill is--the horse is 
out of the barn. You know, the House passed the bill. Again, it 
is a nullity. It has no effect legally. Congressional Budget 
Office says it has no budget impact.
    The Senate frankly should focus its time on much better 
issues such as sequestration which again, 690,000 DOD civilian 
employees lost 20 percent, will lose 20 percent of their 
paycheck for the next 11 weeks.
    In my community of Groton, Connecticut, with 8,000 sailors 
and thousands of--that is what is hurting small business today 
is having 690,000 federal employees lose 20 percent of their 
paycheck for the next 11 weeks.
    That is hurting people's ability to go out and buy 
hamburgers or clothing or gas, or rent, not, you know, again, 
an issue that has been taken off the table for a full year.
    That should be the focus of this Congress. I hope in the 
future that this economy--that this Committee is going to focus 
on real issues that are actually inhibiting growth in the 
economy and not talking about, again, a bill that has already 
passed last week.
    Our process deserves better and the people of this country 
deserve better.
    And I yield back.
    Chairman Roe. I thank the gentleman for yielding.
    Mr. Walberg?
    Mr. Walberg. I thank the chairman for holding this hearing, 
and it would have been nice to have had it at a reasonable time 
before action was taken in a blog by the President.
    It is a discussion that we ought to have. This has 
certainly given us the opportunity to have that discussion. It 
ought to go on.
    Churchill, having Hillsdale College in my district, and a 
Churchill aficionado as the president of that school, I am 
reminded of a statement that I think applies very well here, 
Mr. Chairman.
    Churchill said that some people regard private enterprise 
as a predatory tiger that needs to be shot. Others view it as a 
cow that needs to be milked. Too few people see free enterprise 
as a healthy horse pulling a sturdy wagon.
    I want to say thank you to Dr. Holtz-Eakin, Ms. Turner, and 
Mr. Richardson for defending that truth of what private 
enterprise is about; a healthy horse pulling a sturdy wagon 
that benefits all, that provides jobs, that provides 
opportunity.
    Thank you for giving us real world experience and 
discussion opportunities that we all should have had a long 
time ago.
    Mr. Pollack, thank you for giving statistics and the other 
side of the story, but I must admit that the sky is falling 
argument doesn't cut it. If it were just that, it would mean 
nothing to us, but rather it is the fact that the foundations 
of this great country of liberty and opportunity with personal 
responsibility are being bombarded and cracked, in certain 
cases at the point of falling in destruction.
    This is the discussion that should have taken place in 
2009. It was not allowed. Under the cover of darkness this 
mandate was put through as well as the rest of the health care 
law and liberties were bombarded, and I don't care what you can 
say about statistics and numbers, it is real live people that 
we ought to be concerned with.
    I mentioned earlier--and why don't we let them speak again 
as opposed to just a chairman speaking, give them voice.
    When a Democrat Senator, Mr. Chairman, says, ``This is a 
train wreck,'' when the United Union of Roofers, Waterproofers, 
and Allied Workers call for repeal or complete reform, when the 
International Brotherhood of Electrical Workers and National 
Electrical Contractors Association wrote just recently to our 
chairman, ``We cannot afford to sit on the sidelines as this 
law imposes increased benefit cost fees and new taxes on our 
plans. In addition, the health care law exempts all employers 
with less than 50 employees from offering health care coverage. 
This creates a vast competitive disadvantage for the 4500 
contractors nationwide that responsibly provide coverage for 
their employees.'' And then finally, the International 
Brotherhood of Teamsters, United Food and Commercial Workers, 
and UNITE-HERE say this, ``It will shatter not only our hard 
earned health benefits but destroy the foundation of the 40-
hour work week that is the backbone of the American middle 
class''--middle-class--that we are so concerned about, as we 
ought to be.
    And then they said, ``We can no longer stand silent in the 
face of elements of the Affordable Care Act that will destroy 
the very health and well-being of our members along with 
millions of others hard-working Americans.''
    Those aren't statistics, Mr. Chairman. Those are lives. 
Those are people that are being impacted and we ought to have 
this debate before, after, during whatever goes on.
    And isn't it true that in our civics classes we were told 
that not only laws can be implemented, but they can be 
repealed, and that takes a discussion.
    More importantly, it involves people like a 59-year-old 
single mother who called my office 4 weeks ago in tears and 
said to my staff, ``This morning I was told by my employer, a 
home health care provider in Albion, Michigan that I am being 
cut from my 38 hours to 28 hours because of Obamacare.''
    She says that, ``When I have 38 hours as a home health care 
provider,'' a tough job, ``I also worked at a restaurant on the 
weekends to make the additional so I could pay my mortgage. I 
am 59 years old. I will probably keep my waitress job for the 
few hours on the weekend, but where am I going to get the rest 
of the resources to pay my mortgage? And then, how am I going 
to buy my own health care?''
    That is reality, Mr. Chairman. I applaud you for holding 
this hearing today. I applaud you for putting a panel together 
that brought reality across the board and why this discussion, 
why this debate needs to continue.
    And I yield back.
    Chairman Roe. I thank the gentleman for yielding.
    And I will close by saying thank you all for being here. It 
has been a great discussion. You know, I have never seen a 
Republican or a Democrat heart attack in my life. I have never 
operated on a Republican or Democrat cancer in my life. It is 
just people who have these problems and we should have gotten 
together as a people in a bipartisan way.
    And the only thing bipartisan about the Affordable Care Act 
was the vote to not accept it. That was bipartisan. In our 
state, we had half the people who had private health insurance 
and then dropped it to get on the public system. What happened 
in 10 years was our cost tripled.
    And what happened was a democratic governor at that time, 
cut the roles. That was a very painful going through that. I 
remember that very well and also reduced the benefits because 
we have to have a balanced budget. We can't run a budget that 
runs with these huge deficits.
    And Dr. Holtz-Eakin, I can absolutely assure you what will 
happen is with these very rich subsidies, employees and 
employers will figure out to drop those, and as Mr. Walberg, I 
have had a very similar experience where a server at home at a 
restaurant had her hours cut from full-time to 29 hours. This 
is a divorced woman in her 50s who had to make her own way.
    Now misses 8 hours; she will miss an entire week's worth a 
month, and she did have an insurance policy. Now she doesn't. 
And you are seeing that over and over and over across the 
country. Go out and talk to people. It is real out there, and I 
know that if you don't believe that--I don't know what all 
these hearings I have held--I have held three of them around 
the country--I have heard the same thing now for 2 years 
everywhere I go.
    It does not affect as much the large group and the biggest 
problem as Ms. Turner pointed out in health insurance in this 
country is the cost of it. If we could bring the cost down then 
you would have a much more--you would have many more people 
that would have health insurance.
    And it is a huge challenge now and one of the reasons the 
costs are so high is the regulatory burden. There is no 
question about that. I looked at the cost that added to my 
practice that added no value to the patients whatsoever, none, 
just more boxes for me to check, and if I didn't check enough 
boxes, I didn't get paid.
    So we do need to simplify this. It is a huge issue, and I 
agree with Mr. Polis, and I applaud the President for delaying 
this. I would applaud him for delaying the mandate for 
individuals.
    I would applaud him to overturn this entire bill and start 
over again with something that is patient-centered, where 
doctors and patients make those decisions, and get the 
insurance companies out of making those decisions and certainly 
get the federal government out of making those decisions. Put 
the people in charge of that back in charge.
    You know, it is an amazingly complex. I don't argue with 
anybody who wanted to increase the coverage. And Mr. 
Richardson, you have clearly pointed out as you have proudly so 
that your company has offered health insurance coverage for 
almost 80 years to your employees.
    In our practice, even before I began, over 50 years we have 
offered coverage. I don't know how much longer you are going to 
be able to do that and afford to do that. And that is one of 
the frustrations because we want to do that, and it is the 
right thing to do, to do that to help your employees.
    I thank all of the members for being here, and I certainly 
thank all the witnesses.
    And with no further comments, the meeting is adjourned.
    [The statement of Hon. Fudge follows:)
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    [Questions submitted for the record and their responses 
follow:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    [Whereupon, at 12:08 p.m., the subcommittees were 
adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
